<html>
<title> - THE EFFECTS OF THE MADRID TERRORIST ATTACKS ON U.S.-EUROPEAN COOPERATION IN THE WAR ON TERRORISM</title>
<body><pre>[Senate Hearing 108-634]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-634

      THE EFFECTS OF THE MADRID TERRORIST ATTACKS ON U.S.-EUROPEAN 
                  COOPERATION IN THE WAR ON TERRORISM

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 31, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
95-699                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                    GEORGE ALLEN, Virginia, Chairman

GEORGE V. VOINOVICH, Ohio            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
JOHN E. SUNUNU, New Hampshire        CHRISTOPHER J. DODD, Connecticut
LINCOLN CHAFEE, Rhode Island         JOHN F. KERRY, Massachusetts

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Allen, Hon. George, U.S. Senator from Virginia, opening statement    14
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................    16
    Prepared statement...........................................    20
Black, Hon. J. Cofer, Coordinator, Office of the Coordinator for 
  Counterterrorism, U.S. Department of State, Washington, DC.....     1
    Prepared statement...........................................     5
Dobbins, Hon. James, director, International Security and Defense 
  Policy Center, RAND Corporation, Washington, DC................    41
    Prepared statement...........................................    43
Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    59
Gordon, Dr. Philip H., senior fellow and director, Center on the 
  United States and Europe, The Brookings Institution, 
  Washington, DC.................................................    34
    Prepared statement...........................................    38
Kagan, Mr. Robert, senior associate, Carnegie Endowment for 
  International Peace, Washington, DC............................    22
Niblett, Dr. Robin, executive vice president, Center for 
  Strategic and International Studies, Washington, DC............    26
    Prepared statement...........................................    29

                                 (iii)

  

 
     THE EFFECTS OF THE MADRID TERRORIST ATTACKS ON U.S.-EUROPEAN 
                  COOPERATION IN THE WAR ON TERRORISM

                              ----------                              


                       WEDNESDAY, MARCH 31, 2004

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. George Allen 
(chairman of the subcommittee), presiding.
    Present: Senators Allen, Biden, and Dodd.
    Senator Allen. Good afternoon to everyone. Welcome. I call 
this hearing of the European Affairs Subcommittee of the 
Foreign Relations Committee to order.
    Today, we are going to examine the terrorist attacks in 
Madrid, Spain, and what effect that will have on hopeful 
continued cooperation between the United States and Europeans 
in the war on terrorism.
    I'm going to state at the outset that Ambassador Black, has 
a limited amount of time to testify, share his observations and 
insight and answer questions. So, I'll forego my opening 
remarks until we hear from the Ambassador, and I will ask my 
colleagues to do the same.
    Senator Biden, I understand, is on the way.
    For those of you on the second panel, thank you for being 
here. You'll hear committee members' opening statements prior 
to your testimony.

 STATEMENT OF HON. J. COFER BLACK, COORDINATOR, OFFICE OF THE 
   COORDINATOR FOR COUNTERTERRORISM, U.S. DEPARTMENT OF STATE

    Mr. Black. Thank you, Mr. Chairman and members of the 
committee for this timely opportunity to appear before you 
today to discuss European cooperation with the United States in 
the Global War on Terrorism.
    Cooperation with Europe is very much on my mind, as I have 
just left our semi-annual bilateral counterterrorism meeting 
with Russia to attend this hearing. The fact that we meet 
regularly with the Russians to exchange views on terrorism 
issues shows just how far we've come in expanding our 
counterterrorism cooperation.
    Before beginning my testimony, I would like to express my 
own deep sympathy for the people of Spain who suffered the 
massive attack in Madrid 2 weeks ago as well as the people of 
Uzbekistan who were attacked this week. Our hearts go out to 
them and the brutal attacks only strengthen our resolve to try 
to deter future attacks and see the culprits for this one be 
caught and punished.
    There is cultural and historical reasons. Not all Europeans 
use the term ``war'' to refer to our common confrontation with 
global terrorism. However, I believe the people of Europe are 
united in their abhorrence of terrorism. This revulsion has 
only been strengthened by the horror of the train bombs in 
Madrid and the suicide bombers in a crowded market in Tashkent.
    Well before the Madrid outrages which killed more people 
than any single terrorist attack in Europe since Lockerbie, 
many European countries have been targets of international or 
domestic terrorism. Sadly, Europeans well know the price 
terrorism exacts.
    Senator Allen. Ambassador Black, let me interrupt. If you 
could get the microphone closer to you or maybe more in the 
middle, I think we'll be able to hear you a little better.
    Mr. Black. I'll try that.
    Senator Allen. That's better.
    Mr. Black. Mr. Chairman, as shown by the widening Spanish-
led investigation that is taking place with the cooperation of 
Morocco and several European countries, neither the U.S. nor 
Europe can fight the war against terrorism alone.
    Europeans have been reliable partners, both bilaterally and 
in multilateral organizations. Cooperation has been forthcoming 
and rapid response to immediate threats the norm. France and 
Britain and our neighbor Mexico, for example, acted immediately 
and vigorously to address our concerns about heightened and 
specific threats to aviation over the Christmas holiday period. 
We greatly appreciate this cooperation.
    Successes in the campaign against terrorism have, to a 
large degree, been the result of the unprecedented level of 
cooperation and mutual support among the United States and our 
partners around the world. The contributions of European 
countries in sharing vital information, arresting members of 
terrorist cells, interdicting terrorist fighting logistics, and 
assisting in the rebuilding of Afghanistan have been and 
continue to be vital elements in the war on terrorism.
    European nations are active participants in a variety of 
multilateral organizations that have made contributions to 
counterterrorist efforts, including the G8, the Financial 
Action Task Force or FATF, the Organization for Security and 
Cooperation in Europe, OSCE, and the International Civil 
Aviation Organization, ICAO.
    The United States has worked through all of these 
organizations to establish and implement counterterrorism best 
practices, build weak-but-willing states' counterterrorism 
capabilities, and institutionalized the war against terrorism 
globally.
    OSCE members have committed themselves to become parties to 
the 12 U.N. terrorism conventions and protocols, to prevent 
terrorist groups from operating on their territory and to 
prevent and suppress the financing of terrorist organizations.
    I'd like to speak a little bit, Mr. Chairman, about 
European Union cooperation. The EU has been a solid partner in 
sustaining the global coalition against terrorism. Following 9/
11, the European Council adopted an action plan to identify 
such areas as police and judicial cooperation, humanitarian 
assistance, transportation security, and economic and finance 
policy to help fight terrorism.
    The EU and U.S. signed extradition and mutual legal 
assistance treaties at the June 2003 summit that will expand 
law enforcement and judicial cooperation.
    The Madrid bombings have provided additional impetus for 
action. In an 18-page declaration on counterterrorism on March 
25, EU heads of state agreed, among other things, to reinforce 
operational cooperation, improve the effectiveness of border 
information systems, and to increase the technical assistance 
to Third World countries.
    We applaud the designation of a new EU Counterterrorism 
Coordinator and a new sense of urgency stemming from the Madrid 
attacks and will help speed EU implementation of actions 
outlined in the EU summit declaration.
    The capabilities of our Western European partners are 
excellent. European intelligence and security forces are well 
aware of the threat posed by Islamic extremism and generally do 
an effective job of monitoring extremists. They have 
successfully forestalled numerous incipient mass casualty 
attacks since 9/11.
    However, significant deficiencies remain. Some European 
states have demonstrated a troubling inability to prosecute 
successfully or hold many of the terrorists brought before 
their courts. The nature of the problem varies from country to 
country, as do the legal systems, traditions and relevant 
legislation.
    Some countries have legal impediments to taking firm 
judicial action stemming from asylum laws. Some have inadequate 
counterterrorism legislation. Some have extremely high 
standards of evidence that afford loopholes and limit the 
ability of authorities to hold suspects. Many do not have in 
camera proceedings, making use of intelligence-based 
information nearly impossible. Ease of travel among Schengen 
countries and strict protections of privacy can also complicate 
counterterrorism efforts.
    Differing perspectives on the dividing line between 
legitimate political and charitable activity and support for 
terrorist groups similarly clouds the picture. For example, the 
EU as a whole has been reluctant to take steps to block the 
assets of charities linked to Hamas and Hizballah, even though 
these groups repeatedly engage in terrorist attacks and the 
``charitable'' activities help draw recruits.
    Even laying aside the contentious issue of the death 
penalty, European sentences in general are often significantly 
less stringent than those in the United States and provisions 
for mandatory remission of sentences frequently more generous.
    We want to work with our European partners to identify 
areas where there is work to be done and ways in which we can 
collaborate more effectively. Let me briefly address some of 
them.
    All of us, including the United States, need to improve 
coordination between our law enforcement and intelligence 
agencies. There have been significant advances since September 
11, 2001, but we can still do more.
    We all need to improve or ability to track terrorism 
financing. Most countries in Europe have good laws against 
terrorism financing, but some of the financial transfers slip 
past regulators in the formal economy. Some transactions move 
through informal, largely illegal, channels.
    All of us need to continue to improve the control of our 
borders, both with respect to movement of persons in and out, 
and movement of potentially dangerous items, especially those 
possibly related to weapons of mass destruction.
    We also must remedy deficiencies in the legal, financial, 
and enforcement tools. European countries need to fulfill their 
commitments to ratify and implement all of the U.N. 
counterterrorism conventions and protocols.
    States must ensure the criminalization of material and 
logistical support for terrorism, and in some cases terrorism 
itself, impose strict punishments on convicted terrorists, and 
lower obstacles to the use of intelligence in law enforcement. 
Laws against document fraud need to be strengthened across the 
board. All countries need to have a national ability to freeze 
administratively terrorist assets.
    Legal or technical impediments to closer cooperation among 
countries on intelligence and information exchanges must be 
removed. The EU and its member states need to re-examine 
fundamentally the ways in which strict privacy laws can impede 
the sharing of information for law enforcement purposes.
    EU member states need to accelerate efforts to complete 
bilateral agreements with the United States to implement the 
U.S.-EU extradition and mutual legal assistance agreements.
    I'd like to speak a little bit about wider cooperation. At 
the same time, we need to continue to look for ways to develop 
cooperative U.S.-European counterterrorism programs to assist 
less-capable countries. Many countries need assistance in 
developing their capabilities to counter terrorism and 
strengthen their legal framework. There is more than enough 
work for us all.
    Senator Biden. Excuse me. I beg your pardon. Clarification.
    Mr. Black. Yes.
    Senator Biden. Are you talking about countries within the 
EU?
    Mr. Black. Outside the EU.
    Senator Biden. Outside the EU but within Europe?
    Mr. Black. No. Outside of Europe.
    Senator Biden. OK. Thank you.
    Mr. Black. As you know very well, Senator, the United 
States has a pretty robust program of working bilaterally with 
countries that have the will to resist terrorism but not the 
capability. We also work regionally, such as in this 
hemisphere, through the OAS, and we have been working 
productively, I think, and need to work closely with the 
Europeans so they get out and participate and help states that 
can use their assistance.
    Addressing the factors that reduce counterterrorism 
effectiveness in Europe will be a long process. Varying legal, 
cultural and historical traditions and practices will 
complicate and slow the process. However, there is no doubt the 
Europeans are increasingly aware of both the threat and the 
deficiencies that limit their abilities to address it.
    To win the global war on terrorism, we must continue to 
work closely with our European partners to address those 
concerns and to build on our many successes. We will need to 
shore up support from public opinion by more clearly 
articulating our policies and underscoring that terrorism is a 
global threat to citizens of all countries. Reducing your 
profile in confronting terrorism does not reduce your risk from 
terrorism.
    The United States and Europe share a long history of 
cooperation against common enemies. Together, we won the wars 
against fascism and communism and together we will win this 
war.
    At this point, I think I should stop and I'd be pleased to 
take your questions.
    [The prepared statement of Ambassador Black follows:]

            Prepared Statement of Ambassador J. Cofer Black

    Thank you Mr. Chairman and members of the Committee for this timely 
opportunity to appear before you today to discuss European cooperation 
with the United States in the Global War on Terrorism. Cooperation with 
Europe is very much on my mind, as I have just left our semi-annual 
bilateral counterterrorism meeting with Russia to attend this hearing. 
The fact that we meet regularly with the Russians to exchange views on 
terrorism issues shows how far we have come in expanding our 
counterterrorism cooperation.
    Before beginning my testimony, I would like to express my own deep 
sympathy for the people of Spain who suffered the massive terrorist 
attack in Madrid two weeks ago. Our hearts go out to them and the 
brutal attack only strengthens our resolve to try to deter future 
attacks and see the culprits for this one be caught and punished.
    For various cultural and historical reasons, not all Europeans use 
the term ``war'' to refer to our common confrontation with global 
terrorism. However, I believe the people of Europe are united in their 
abhorrence of terrorism. This revulsion that has only been strengthened 
by the horror of the train bombs in Madrid and of the suicide bombers 
in a crowded market in Tashkent. Well before the Madrid outrages, which 
killed more people than any single terrorist attack since Lockerbie, 
many European countries had been targets of international or domestic 
terrorism. Sadly, Europeans well know the price terrorism exacts.
    Mr. Chairman, as shown by the widening Spanish-led investigation 
that is taking place with the cooperation of Morocco and several 
European countries, neither the U.S. nor Europe can fight the war 
against terrorism alone. Europeans have been reliable partners, both 
bilaterally and in multilateral organizations. Cooperation has been 
forthcoming, and rapid response to immediate threats the norm. France 
and Britain--and our neighbor Mexico--for example, acted immediately 
and vigorously to address our concerns about heightened and specific 
threats to aviation over the Christmas holiday period. We greatly 
appreciate this cooperation.
    Successes in the campaign against terrorism have, to a large 
degree, been a result of the unprecedented level of cooperation and 
mutual support among the U.S. and our partners around the world. The 
contributions of European countries in sharing vital information, 
arresting members of terrorist cells, interdicting terrorist financing 
and logistics, and assisting in rebuilding Afghanistan have been and 
continue to be, vital elements in the war on terrorism.
    European nations are active participants in a variety of 
multilateral organizations that have made contributions in 
counterterrorist efforts, including the G-8, the Financial Action Task 
Force (FATF), the Organization for Security and Cooperation in Europe 
(OSCE), and the International Civil Aviation Organization (ICAO). The 
U.S. has worked through all of these organizations to establish and 
implement counterterrorism (CT) best practices, build weak-but-willing 
states' CT capabilities, and institutionalize the war against terrorism 
globally. OSCE members have committed themselves to become parties to 
the 12 UN terrorism conventions and protocols; to prevent terrorist 
groups from operating on their territory; and to prevent and suppress 
the financing of terrorist organizations.

                             EU COOPERATION

    The EU has been a solid partner in sustaining the global coalition 
against terrorism. Following 9/11, the European Council adopted an 
Action Plan to identify areas, such as police and judicial cooperation, 
humanitarian assistance, transportation security and economic and 
finance policy, to help fight terrorism. The EU and U.S. signed 
Extradition and Mutual Legal Assistance Treaties at the June 2003 
Summit that will expand law enforcement and judicial cooperation.
    The Madrid bombings have provided additional impetus for action. In 
an 18-page declaration on counter terrorism on March 25, EU heads of 
state agreed, among other things, to reinforce operational cooperation, 
improve the effectiveness of border information systems, and bolster 
technical assistance to Third countries. We applaud the designation of 
a new EU Counterterrorism Coordinator and a new sense of urgency 
stemming from the Madrid attacks will help speed EU implementation of 
actions outlined in the EU Summit declaration.
    The capabilities of our Western European partners are excellent. 
European intelligence and security forces are well aware of the threat 
posed by Islamist extremism and generally do an effective job of 
monitoring extremists. They have successfully forestalled numerous 
incipient mass casualty attacks since 9-11.
    However, significant deficiencies remain. Some European states have 
demonstrated a troubling inability to prosecute successfully or hold 
many of the terrorists brought before their courts. The nature of the 
problem varies from country to country, as do legal systems, traditions 
and relevant legislation.
    Some countries have legal impediments to taking firm judicial 
action stemming from asylum laws; some have inadequate CT legislation; 
some have extremely high standards of evidence that afford loopholes 
and limit the ability of authorities to hold suspects; many do not have 
in camera proceedings, making use of intelligence-based information 
nearly impossible. Ease of travel among Schengen countries, varying 
immigration laws, and strict protections of privacy can also complicate 
CT efforts.
    Differing perspectives on the dividing line between legitimate 
political or charitable activity and support for terrorist groups 
similarly clouds the picture. For example, the EU as a whole has been 
reluctant to take steps to block the assets of charities linked to 
Hamas and Hizballah, even though these groups repeatedly engage in 
deadly terrorist attacks and the ``charitable'' activities help draw 
recruits. Even laying aside the contentious issue of the death penalty, 
European sentences in general are often significantly less stringent 
than those in the U.S., and provisions for mandatory remission of 
sentences frequently more generous.
    We want to work with our European partners to identify areas where 
there is work to be done and ways in which we can collaborate more 
effectively. Let me briefly address some of them:
    All of us, including the United States, need to improve 
coordination between our law enforcement and intelligence agencies. 
There have been significant advances since September 11, 2001, but we 
can still do better.
    We all need to improve our ability to track terrorism financing. 
Most countries in Europe have good laws against terrorism financing, 
but some of the financial transfers slip past regulators in the formal 
economy. Some transactions move through informal, largely illegal, 
channels.
    All of us need to continue to improve the control of our borders, 
both with respect to movement of persons in and out, and movement of 
potentially dangerous items, especially those possibly related to 
weapons of mass destruction.
    We also must remedy deficiencies in legal, financial and 
enforcement tools:

  <bullet> European countries need to fulfill their commitments to 
        ratify and implement all the UN CT conventions and protocols.

  <bullet> States must insure the criminalization of material and 
        logistical support for terrorism (and in some cases, terrorism 
        itself); impose strict punishments on convicted terrorists; and 
        lower barriers to use of intelligence in law enforcement. Laws 
        against document fraud need to be strengthened across the 
        board.

  <bullet> All countries need to have a national ability to freeze 
        administratively terrorist assets.

  <bullet> Legal or technical impediments to closer cooperation among 
        countries on intelligence and information exchanges must be 
        removed. The EU and its member states need to re-examine 
        fundamentally the ways in which strict privacy laws can impede 
        the sharing of information for law enforcement purposes.

  <bullet> EU member states need to accelerate efforts to complete 
        bilateral agreements with the U.S. to implement the U.S.-EU 
        Extradition and Mutual Legal Assistance Agreements.

                           WIDER COOPERATION

    At the same time, we need to continue to look for ways to develop 
cooperative U.S.-European CT programs to assist less-capable countries. 
Many countries need assistance in developing their capabilities to 
counter terrorism and strengthen their legal framework. There is more 
than enough work for all of us.
    Addressing the factors that reduce CT effectiveness in Europe will 
be a long-term process. Differing legal, cultural and historical 
traditions and practices will complicate and slow progress. However, 
there is no doubt that the Europeans are increasingly aware of both the 
threat and the deficiencies that limit their abilities to address it.
    To win the global war on terrorism, we must continue to work 
closely with our European partners to address these concerns and to 
build on our many successes. We will need to shore up support from 
public opinion by more clearly articulating our policies and 
underscoring that terrorism is a global threat to citizens of all 
countries. Reducing your profile in confronting terrorism does not 
reduce your risk from terrorism.
    The U.S. and Europe share a long history of cooperation against 
common enemies. Together, we won the wars against fascism and communism 
and together we will win this war.
    At this point I would be pleased to take any questions. Thank you.

    Senator Allen. Thank you, Ambassador Black, for your 
testimony and insight.
    I think after 9/11 and after 3/11, all of us learned a 
great deal of how we need to adapt and I think all of us know 
that we need to improve.
    I thank you for your comprehensive statement and 
assessment.
    Let me follow on some of the details from your statement, 
and one of the reasons for this hearing and why it's timely is 
we just had the Madrid attacks. There's a concern about what 
are the implications, and have you seen any perceptible change 
in cooperation from Europe since the attacks in Madrid, and how 
would you respond to the argument or the assertions or 
insinuations made in parts of Europe that the attacks on Madrid 
prove that persuasion and diplomacy are preferable to military 
engagement when combating terrorism?
    Mr. Black. I think at this point, Senator, it's too soon to 
be able to speak definitively on the subject. I think we can 
make some sort of tentative judgments.
    Initial signs are that these attacks have spurred sort of 
an increase in a sense of urgency. We have to accept that our 
European partners on the other side of the ocean viewed with 
horror the catastrophic attack of 9/11 against the United 
States. They were very supportive. A coalition was formed.
    I think to a certain extent, it was seen to be somewhat 
remote and that their plans and policies and procedures were 
adequate for them in their geographical location and in their 
time. I think this tragedy has underscored the concept, of 
course, that no one is immune. I think Europeans are coming to 
terms with this. They have particular national orientations, 
but it has had some positive results.
    Security measures have been tightened. I think cooperation 
within the EU, within the European countries, has increased. 
Cooperation certainly with the United States has increased. 
European Union has identified and named a Counterterrorism 
Coordinator. They realize that cooperation is the key to 
success. Transparency is required, and the Europeans have a lot 
of work to do in this area, as do we all, but I think it's an 
appreciation that they need to devote additional time and 
resources.
    The European populations generally have felt a sense of 
outrage and they are coming, I think, closer to our position, 
at least appreciating the horror of this, and I think it's our 
obligation from our position of having gone through such a 
catastrophic experience to help them in this quest to reach the 
right conclusion, and in fact, before this hearing began, 
Senator, you and I briefly discussed this.
    I think there's a general inclination to think that 
counterterrorism issues can be managed and perhaps managed 
successfully. The President of the United States, George Bush, 
has declared this as a global war on terrorism and he's exactly 
right.
    In a war, management is a part of success, but you have to 
identify the enemy. You have to engage them. You have to 
prevent them through various means from hurting innocent men, 
women and children, and I think the Europeans are on the 
conveyor belt of generally reaching this impression. When they 
will reach where we are, I just can't say.
    Senator Allen. Thank you. One of the other troubling 
aspects of this terrorist attack in Madrid was the timing. It 
was right before an election, and therefore there's the 
impression, and there certainly is a connection, and I'm not 
going to say how clear it is, but a connection that they're 
trying to affect the outcome of the election and, of course, 
all the political scientists feel that it did have an effect on 
the election.
    Now, how is our administration countering the perception 
that al-Qaeda can influence elections? How can we make a better 
case for our policy to prevent electorates in various countries 
from associating cooperation with the United States with 
terrorist attacks?
    I know that's a very tough question, but it's one that you 
hear a great deal about.
    Mr. Black. You're absolutely right. I think, in response to 
that question, I'm mindful of the statement made by Mr. 
Armitage, the No. 2 man at the State Department, Deputy 
Secretary, when asked this question.
    It was his view that the election in Spain was basically 
revolving around the issue, the perception of management, 
political management of this issue by the Aznar administration 
and certainly was not a repudiation of the threat of terrorism 
as it is represented to the Spanish people.
    Our interaction with the Spanish is intensive. Our 
diplomacy is solid. It's on a very good base. We are strong 
colleagues in the war on terrorism, and their support has been 
excellent. After the elections, the Spanish have underscored to 
us their full acceptance that terrorism is an issue of great 
significance to them. They plan to engage it more closely, 
unilaterally as well as with their European partners, and will 
work with us on this.
    I do believe that as the days and weeks unfold and we have 
a little bit of time to get past the memorial service--in fact, 
the Secretary of State just returned the other day from 
Madrid--in memory of the loss of life, I think that it is 
likely that Europeans and their procedures will be enhanced. 
They will be more formidable in the global war on terrorism, 
and they will be benefited by it and so will we.
    Diplomatically, the United States will continue an 
unrelenting drumbeat that the President of the United States 
says there really are no sidelines. We're all in this wherever 
we are and the solution of victory comes simply from pulling 
together and doing our best.
    Senator Allen. Thank you, Ambassador. Given your limited 
amount of time, I'm suggesting 7-minute rounds for questions. 
So, I have a little less than 2 minutes.
    Let me ask you this. In your testimony, you mentioned 
European countries need to fulfill their commitments to ratify 
and implement all the U.N. counterterrorism conventions and 
protocols and you went through some of the different matters on 
lower barriers to use of intelligence and law enforcement.
    No. 1. Are those the specifics as you enunciated in your 
statement, and second, if so or if not, rather than us--the 
United States loves our sovereignty and we don't particularly 
like others telling us what we ought to pass around here.
    Is it desirable on the part of the European countries, 
European Union to commit themselves in ratifying and 
implementing these counterterrorism conventions, laws, 
protocols, and so forth, so therefore it's likely that it will 
happen?
    I don't think that most free countries--it's just the way 
we are as independent free people--don't like others telling 
them what they have to have, but if they find it desirable, 
they're more likely to actually adopt them.
    So, what is their desirability and therefore the likelihood 
of them implementing these counterterrorism measures?
    Mr. Black. There are 12 that are being advanced by the 
United Nations. Certainly in principle, there is agreement, and 
what we're looking at is each nation----
    Senator Allen. There's agreement----
    Mr. Black. In principle, there is agreement to the 12 
protocols on counterterrorism.
    When it comes to a national issue, there are some that 
require considerable deliberation and review within their own 
national systems and our role has been to provide information 
and encouragement to sign all 12. We believe it provides a 
basis, an international basis, from which we can take 
counterterrorism action. It includes many things.
    As an example, you know, the banning of plastic weapons, 
handguns made out of plastic and things like that. Some 
countries may have some unique and exotic issue with it and 
that's a problem. The role of the United States has been to 
encourage acceptance of this, to have each nation approve all 
12, so that we have a common fundamental base from which we can 
cooperate and increase our collective effectiveness.
    Senator Allen. Thank you, Mr. Ambassador.
    Mr. Black. Yes, sir.
    Senator Allen. Senator Biden.
    Senator Biden. Thank you, Mr. Chairman. I want to 
compliment you on holding this hearing, notwithstanding the 
fact that other things are going on. I think this is one of the 
most important hearings we could have before the full committee 
or subcommittee at this moment, and I want to thank you for 
being willing to and for the witnesses you have assembled. 
Obviously, the Ambassador is a consequential person in this 
administration and in counterterrorism, but the witnesses you 
have to follow are all first rate, and I want to compliment 
you.
    Senator Allen. Thank you for suggesting two of those 
outstanding witnesses.
    Senator Biden. But really and truly, these are some very 
serious people and it's a serious time, as you know better than 
I do.
    Mr. Ambassador, in the interest of the time we have, and I 
know you have a very busy schedule, I'm going to focus on 
Europe vis-a-vis Europe and Europe vis-a-vis the United States, 
not Europe and what ancillary responsibilities we think they 
should have outside of Europe. OK?
    Mr. Black. Yes.
    Senator Biden. They are not able to be clearly 
distinguished, I'm not suggesting that, but I want to focus on 
being as basic as I can to try to get a sense here.
    Now, let me start off by also acknowledging that we're in a 
situation where, as you well know, there are other issues that 
are impacting upon our, not ability, but the atmosphere in 
which we're discussing specific counterterrorist activities 
that we'd like to see individual European nations undertake.
    We are pushing, as you pointed out, and the protocols, the 
12 you have referred to, I think they make sense. They feel 
very much, and I think they were wrong in not cooperating more, 
but they feel very much that we stiffed them on a new national 
criminal court and so we tend to be, as we always do, every 
administration, we tend to be multilateral and bilateral when 
we need it and unilaterally when we want it.
    So, you're entering this in a very highly charged 
atmosphere that doesn't relate to what happened in Madrid 
initially. A lot of other things have come to bear. I know you 
know that better than anyone, but I just want to state that at 
the outset.
    Having said that, since Madrid, have Europeans reached out 
for any advice or assistance from us relative to 
counterterrorist tactics, activities, or protocols? Has there 
been any direct contact? Has the Minister of the Interior of 
anywhere from Italy to Belgium called and said, look, what are 
you guys doing about A, B, C, or D?
    Mr. Black. Let me respond that first, as always, it's an 
honor to be before you, Senator. Your questions, as always, are 
right to the point.
    The relationship between law enforcement and security 
services between the United States and all of the European 
countries is very good. They do the business of 
counterterrorism day in and day out and we don't really hear 
much about it or see much about it, but across the board, it 
has been good, and I think the quality of that is improving 
regularly.
    You see evidence of this in the newspapers, such as the 
arrest in the United Kingdom of eight suspected terrorists, and 
what we usually don't see with things like this is--what we do 
not see is things associated with this arrest. It has a ripple 
effect. It goes not only throughout Europe, it can reach as far 
as this hemisphere, and there's intense cooperation of these 
kinds of issues.
    I think immediately in the wake of the Madrid attack, 
there's been excellent working level cooperation in all of the 
action elements. At the senior levels, there's contact, but the 
Europeans are really coming to terms with the tragedy of this, 
and they realize there's some improvements they can make in 
their own house.
    I never, Senator, hear from a European counterpart who 
tells me that everything is fine and improvement is needed on 
this side of the Atlantic. In fact, this is my own personal and 
professional view, but in some key areas in counterterrorism, 
you know, the Europeans have something to learn from us.
    I think they realize that with this type of attack, it 
spurs them on. They need to have far better integration within 
Europe of their legal systems, the exchange of information, the 
same types of issues that you address every day here in the 
United States on counterterrorism. They're having to do it in 
an EU-wide context, and they have a considerable way to go.
    Senator Biden. Yes, they do, and individually, they have 
hell of a lot more experience than we do on terror. I mean, 
they've forgotten more about it than most of us are going to 
learn. The Brits and the IRA, the Spanish, you know, the list 
goes on, and I think one of the fundamental things is our 
rhetoric, the mutual rhetoric gets in the way of some of this.
    I find at the operational level, there's a lot more 
coordination and respect among our professionals and theirs in 
cooperating and respecting one another than there is at the 
political level. I mean, us included, Congress, everybody. 
There is this sense that--and they do view it because it's been 
their history as more of a law enforcement effort than we do, 
and then the President talks about it and there's always this 
sort of not from you, the counterterrorism expert, but there's 
these throwaway lines that come out of the Congress and the 
administration that this is not a law enforcement issue.
    Well, like hell it's not a law enforcement issue. The guy 
that's going to catch Bin Laden or his counterpart in Europe, 
about to put a bomb on the side of a train that can be 
detonated by remote control, is not going to be a Special 
Forces guy with night vision goggles.
    Mr. Black. Right.
    Senator Biden. It's going to be some cop with a dog. It's a 
law enforcement issue, so I hope we stop this garbage about 
somehow law enforcement is a bad thing and we're the tough 
guys. We're sending the Marines. The Marines aren't going to be 
anywhere near when someone tries to blow up Amtrak, if God 
forbid that happens. It's going to be a cop, a plain old law 
enforcement cop, and so one of the things that I'm concerned 
about here is that--and my time is going to be up in 11 
seconds, but I'd like you to, for the record, and it can be 
classified or not, depending on how you wish to do it, but you 
laid out very clearly in your statement the places where 
additional work is needed vis-a-vis U.S.-European relations.
    You said some countries have legal impediments and then you 
list them, asylum laws, inadequate counterterrorist 
legislation, extremely high standards of evidence, in camera 
proceedings, immigration laws, privacy as relates to assets and 
transfers and bank accounts, length of sentence.
    I hope you drop the last one. I don't care whether or not 
they pick up Bin Laden's chief lieutenant in Bonn, Germany, and 
give him only 5 years. We'll get the son of a gun when he gets 
out of jail. So, I wouldn't--let's not get inundated--
respectful suggestion. Let's not get----
    Mr. Black. I accept it, Senator. I accept everything you 
say.
    Senator Biden. Let's not get in this argument that can only 
anger both sides. Your sentences are not as long as ours. I 
mean, you know, and in terms of in camera proceedings, I'm the 
guy that wrote the law, literally. I wrote the gray mail 
statute, took me 2 years to do that, literally, myself, and 
guess who I got most of the opposition from? Most of the 
opposition for the law came from my conservative friends here 
in the U.S. Congress when I wrote that law in the late 1970s 
with a guy named Mark Gittenstein.
    And with regard to the privacy and the privacy of assets, 
we should--before we get too lecturing, we're not, you're not, 
we should understand that our banking system and our powerful 
interests in this country did not like when I wrote the drug 
legislation requiring that there be an accounting for 
everything $10,000 or over. Oh, no, my God. You're interfering 
with the free enterprise system.
    So, I know you and I have great respect for you.
    Mr. Black. Thank you.
    Senator Biden. I'm counting on you to keep this thing out 
of the polemics, but what I'd like to ask is for the record, if 
you would be prepared to list for us--and if it needs to be 
classified, that's fine by me, the countries and the specific 
references you're making, like the standard of proof that's 
``too high.''
    For example, there are asylum laws. You know, every time I 
sat with Mubarak, Mubarak would say to me, ``Joe, the problem 
is the British know exactly who's sitting in their coffee 
houses.'' So, everybody thinks we're talking about the French 
when we talk about that.
    Mr. Black. Yes.
    Senator Biden. It ain't the French. They just lock them up 
because their sense of what we would call civil rights is not 
nearly as acute as ours.
    Mr. Black. Yes.
    Senator Biden. The Brits have been the problem, our best 
friends, our best friends, and so I think it's important we get 
the facts out here so some of my stupid friends who are 
commenting here on this stuff stop turning this into a--make it 
difficult to sort of overcome the attacks we make on people. 
Now, it's if you look French, there must in fact be something 
wrong with you. And that's one of the reasons I want to know--
if you're willing--who and what laws you're talking about in 
each of these areas rather than generically stated.
    Mr. Black. Absolutely, Senator. If I may, I'd like to give 
you a classified response so I could be more fulsome that way.
    Senator Biden. With the chairman's permission, I think that 
would be very helpful. My time has expired by 3 minutes and 21 
seconds. So I thank you.
    Mr. Black. Thank you.
    Senator Allen. That's OK. Thank you, Senator Biden. Your 
questions were good ones. I was trying to be more diplomatic in 
going through some of those that other countries don't.
    Senator Biden. I'm a Democrat. So, you know.
    Senator Allen. Senator Biden, your strong leadership in 
these areas is valuable to us. I would ask you to submit some 
questions in writing and it may be that other members of the 
committee or subcommittee will as well.
    I do want to get from you your sense and maybe it is best 
that it is not made public because it might harm somebody's 
sensibilities. There is a sense that appeasement or cutting 
back on the perseverance and the strength and unified resolve 
against terrorism insofar as some of countries in Europe, and 
it may not even be the countries. It may be isolated people 
making comments that look like appeasement somehow is a viable 
policy. So, if you could share with us that information, as to 
whether or not there's any currency in Europe to that sort of 
approach.
    Also, in looking at the European Union's 
counterintelligence efforts and there are many different 
countries with different burdens of proof, different standards 
and so forth, one thing we have in this country are uniform 
crime reporting forums, so to speak, but we recognize even in 
this country what we need to do after 9/11 is to make sure the 
FBI, Defense, Intelligence, Immigrations, Customs, consulates, 
state and local law enforcement, everyone was sharing 
information, trying to use technology to analyze the volumes of 
information, so you connect the dots, so to speak.
    This probably ought to also be classified as this 
gentleman, I believe you pronounced his name, de Vries.
    Mr. Black. Gijs de Vries.
    Senator Allen. Gijs de Vries, whether or not you believe 
that he'll be able to help streamline that intelligence 
information, so that when something happens in France, they can 
share it with somebody in the Netherlands, or something happens 
in Spain, they can share that information with someone in 
Belgium, and have that sort of information sharing which is 
vital in this country amongst all our different agencies, is 
vital in Europe, and then, of course, have it mesh with us as 
well.
    So, if you could, when you get a chance, to do that, I'd 
appreciate it.
    Mr. Black. I'd be happy to do it, Senator.
    Senator Biden. Mr. Chairman, could I ask a question?
    Senator Allen. You may.
    Senator Biden. I hope that you will at some point make it 
clear what I think is the truth and if it's not, then say so, 
that I have not met with one European leader or one person 
involved in counterterrorism who hasn't in fact gained more 
resolve in dealing with terror in their respective countries 
since Madrid.
    I've not seen a single scintilla of evidence of any of your 
counterparts anywhere in Europe saying, God, we better get out 
of the business of being with the United States. We don't want 
to be targets.
    Have you seen anything like that?
    Mr. Black. You're absolutely right, Senator. In general, 
people in my line of work see the abyss. They know what the 
threat is and that's what we do for a living. One of the 
challenges is to communicate this through time, but the way you 
phrased the question, since Madrid, I think everyone in Europe 
associated with counterterrorism, whether they're practitioners 
or politicians, certainly have been more attuned to this threat 
and certainly realize that they're in a fight now.
    Senator Biden. Thank you.
    Mr. Black. Yes, sir.
    Senator Allen. Good question, Senator Biden.
    Ambassador Black, thank you for your testimony. I think 
that with our next witnesses, which gets into a political 
science question that really on what's the reaction of people 
in Europe, we'll be able to explore that further.
    Ambassador Black, again, thank you for your testimony. 
Thank you for your great leadership and your advancement of the 
cause of freedom, working with our friends across the Atlantic 
and throughout the world.
    Mr. Black. Thank you very much, Senator Allen and Senator 
Biden. It's been an honor.
    Senator Allen. Thank you. If we can have the second panel 
to come forward.

               OPENING STATEMENT OF SENATOR GEORGE ALLEN

    I thank our second panel for being here. As I stated at the 
outset of this subcommittee hearing, we will have opening 
statements at this time. At the conclusion of my opening 
statement, Senator Biden will speak, then I'll introduce our 
panelists. I understand that one is on the way. All three of 
you and Mr. Dobbins, when he gets here, are outstanding 
witnesses who we look forward to listening to, learning from 
and discussing these issues.
    Clearly, Spain and the world since 9/11 and more recently, 
of course, 3/11, are aware of how difficult executing the 
global war on terrorism will be, that we're going to have to 
persevere.
    It is confirmed as far as we're concerned here, and I think 
any objective observer, that this murdering of hundreds of 
innocent Spaniards cannot derail the 84-member coalition that 
in 2001, after September 11, declared war on the scourge of 
terrorism and then backed that declaration with action in 
Afghanistan and elsewhere in the world.
    It is important to note, as Ambassador Black did, Spain 
continues to mourn the loss of their hundreds of citizens. 
Clearly, those of us in America know such grief and will 
continue to help our ally overcome this terrible tragedy and 
bring those who are responsible to justice.
    The Spanish people, after this terrorist attack, exercised 
their rights in a vibrant democracy. They have spoken. They 
have called for change. There are all sorts of political 
scientists who have said, well, this is the reason for the 
result, but we must respect their right to disagree with us. 
They may not agree with us on 100 percent of the issues, but it 
is good to hear from Ambassador Black that Spain is and will 
remain a strong ally of the United States.
    I am confident and believe that we'll find common ground 
with the incoming Spanish President, Jose Luis Rodriguez 
Zapatero, and will continue to work together to try to prevent 
attacks like those that have been inflicted on our respective 
countries.
    The political aftermath of the Madrid attack does raise 
concerns about U.S. policy and the overall strength and will of 
the coalition in their commitment to stamp out terrorism and 
it's good to hear from Ambassador Black and it will be good to 
hear from our second panel, on this because the seeming cause 
and effect between the attacks at the train station and the 
dramatic change in public opinion could be a cause for alarm 
for nations around the world.
    If an attack timed right before an election can yield 
policies that are somehow beneficial to al-Qaeda, then the 
world could be facing future attacks as a method to threaten or 
blackmail or weaken the government's policies against terrorism 
by the terrorists trying to influence the outcome of an 
election.
    Moreover, if people in free countries get the view that 
support for the war against terrorism as a likely reason for 
the attacks in Madrid, political leaders around the world could 
find themselves under great pressure. It may be that those who 
can see the abyss, like Ambassador Black or others in 
counterintelligence, can see the reality and communicate it to 
the presidents or prime ministers. But there is also public 
opinion and the people who are the owners of the government in 
free countries.
    If they see that this is somehow a concern for their own 
security, that we're fighting a war on terrorism, but that 
actually is going to be harmful to them, then I believe the 
terrorist attacks might be encouraged by that sort of a 
reaction. So it's absolutely essential that the people in free 
countries understand the risk because we cannot allow terrorist 
attacks to provide terrorists with victories or appeasement 
policies.
    Terrorists are not rational. They are not people who care 
about reason. They don't like democracy. They're intolerant of 
people who have different points of view. They are religious 
bigots in many respects as well as all the other aspects of 
them that we need to be strong and unified in combating.
    The question of whether it will lead to other countries 
pulling out from Iraq or distancing themselves from the United 
States and its policies, makes it vital that our U.S. leaders 
maintain open lines of communication with our allies.
    We must assure them that the United States is committed to 
eradicating global terrorism wherever it may reside or wherever 
it's given haven. The idea again of reasoning with terrorists 
without force or with appeasement in my view is naive and I 
believe it's dangerous.
    The enemy clearly seeks to inflict the maximum amount of 
harm on innocent civilian lives in its attacks. It is an enemy 
that cannot be reasoned with. Al-Qaeda and its affiliated 
groups believe that the will of the United States and the will 
of our allies will be worn down if faced with attacks like 
those in Madrid.
    In my view, to be successful against this enemy, we have to 
persevere. We must work closely with our coalition partners, 
sharing intelligence and then acting on that intelligence. Many 
of the recent victories against terrorist groups can be 
directly attributed to the sharing of information between 
governments. Many times, it's our military, but many other 
times, it is law enforcement, as Senator Biden was talking 
about. That's where you're going to get that information 
sharing and hopefully a more coordinated effort in Europe, and 
as far as Mr. de Vries, the new Counterterrorism Coordinator 
for the European Union, he's going to try to cut through, all 
this red tape bureaucracy and make sure that European 
countries' various intelligence agencies are communicating 
potential terrorist threats.
    Such streamlining is what is necessary to efficiently 
execute this war on terrorism and we should certainly applaud 
his decision and pledge to work closely with Mr. de Vries.
    However, if we don't recognize the potential outcomes of 
the Madrid attacks, our best sources of intelligence could 
decide that it is no longer in their interests to work with the 
United States and fall away from our coalition. That simply 
cannot happen. We cannot embolden the terrorists.
    It's not in the interests of the European countries or any 
freedom-loving countries to not make sure this is a 
multifaceted effort, and in fact, it's not just Europe. Of 
course, the focus here is Europe and the United States, but it 
has to do with the Philippines. It has to do with Indonesia, 
Pakistan, India, every country of the world, and so while some 
may question us on Iraq, that is just one battlefield of this 
global war on terrorism.
    It is my hope that our U.S. Ambassadors, our embassies, our 
leaders, our consulates around the globe are engaging in an 
aggressive campaign to allay the fears or concerns of our 
allies about Iraq or, more importantly, the broader war against 
terrorism, and so we need to make our case strongly and we have 
to make that case respectfully. The global war on terrorism 
could be much longer and a much more difficult endeavor if we 
do not make that case in a strong, persuasive way, but also in 
one of cooperation and respect for the rights and sovereignty 
of other nations who are absolutely crucial to our victory.
    So, I thank our witnesses for appearing before the 
subcommittee this afternoon and look forward to your testimony. 
I will introduce you, but before that, I'd like to turn it over 
to Senator Biden for any opening remarks that he would like to 
make.

           OPENING STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.

    Senator Biden. Thank you very much, Mr. Chairman, and I 
want to thank this panel. It's a serious panel, and I'm anxious 
to hear what they have to say, but I would like to suggest at 
the outset that after September 11, I feared that it was only, 
as many of you did, only a matter of time before Europe would 
suffer the same kind of murderous violence that we experienced 
in New York and Washington and from the same source, from the 
same source.
    Europeans have their own images of violence and death and 
their own date which will come to define us as governments and 
as people. Spain had grappled with homegrown terrorism of the 
serious kind with ETA just as the United Kingdom has at the 
hands of the IRA, the Red Brigades in Italy, the Baader Meinhof 
Gang in Germany, the list goes on. They understand what the 
consequences of terror are, but I think that they believed--I'm 
going to say something that's going to be very controversial.
    I think there's two flaws among the ruling elite in both 
our countries now. The flaw I think that exists in this country 
is we believe that the way to deal with international terrorism 
is to decapitate essentially the heads of state in states that 
are empathetic or sympathetic to terror, whether they're 
directly working with terrorist organizations, and they believe 
that that will have a more immediate profound impact on these 
terror networks than going directly after the networks, not 
that they don't want to go directly after the networks as well.
    In Europe, where I've spent the last 30 years of my 32-year 
career dealing with this as either chairman of ranking member 
of this committee, I think they really believe that the reason 
we were a target on 9/11 was our policies.
    I think they believe because they in individual countries 
had policies different relative to the Palestinians, different 
relative to nations in the Middle East, that somehow they 
weren't likely to be the target of the same international 
terrorist network that has morphed now. I think that's a 
fundamental flaw.
    As Mr. Kagan, I suspect, knows better than anyone because 
he's probably, like maybe all of you have done what I have 
done, I think I've read every major tome literally, not 
facetiously, I'm being serious, written in the last 12 to 15 
years that talks about what is happening internally within 
Islam.
    As a matter of fact, I became so aware of my lack of 
substantive knowledge about 1.2 billion people in the world who 
practice Islam, that I hired a Ph.D. anthropologist from 
Harvard University whose expertise was Islam to come and work 
for me several years before 9/11 just to educate me, and if you 
read and you understand that there's essentially--and I'm 
vastly oversimplifying--a 16th century struggle going on within 
Islam that occurred in Europe with Christendom, you begin to 
get a sense of what this is about. You begin to get a sense of 
the fundamentalists in the Islamic world, of whom Bin Laden is 
one, believe that it is literally, Christian phrase, sacrilege 
to have a state in existence that is separate from the 
religious body.
    That is not an Islamic view in the minds of the way he as a 
Sunni and Wahabi reads it. This is not about policy. This goes 
deeper. It goes much deeper.
    With all due respect, we could settle the situation in the 
Middle East if the Lord Almighty came down and said boom, 
there's peace between the Arabs and the Israelis. Does anyone 
think Bin Laden goes away? Does anybody think they leave? The 
pool from which they can fish for their terrorists to work with 
them, that dries up some, but my point is that I think that's 
the dilemma from my perspective that has existed with regard to 
Europe's attitude toward international terrorist organizations 
until now.
    I don't think it was appeasement in the sense that they 
thought that if they stayed a distance from us they would not 
be touched by this.
    The second point I want to make is that the newest form of 
terrorism that they're now encountering, different than IRA, 
the Red Brigade, the Baader Meinhof Gang, et cetera, is on a 
different scale. It's existential. It's not political. With al-
Qaeda, we come face to face with an enemy whose goal is nothing 
less, as the chairman said, than to kill as many people as 
possible and in doing so bring an end to a way of life in the 
West that we have worked so hard to achieve and which they want 
to make sure does not infect their region of the world.
    This, in their view, is literally an assault on Islam. They 
truly believe that, these terrorist organizations of the Bin 
Laden ilk. So, we look to Europe that, like the United States, 
is bound to change in the coming months as it grapples with 
such a diffuse and pernicious new threat that I think they've 
been unwilling to directly look in the eye up to now.
    It seems to me that there are three distinct lessons that 
we should draw from the Spanish election that was held a few 
days after the Madrid attack.
    First, some people may have voted against the conservatives 
because they believe Aznar's alliance with the United States 
made them a target. I don't doubt that there's some Spaniards 
who believe that and that's why they voted the way they did. 
That's a very human reaction, but it's also, I think, a very 
misguided one.
    There is no appeasing al-Qaeda and its allies. Every 
liberal democracy is a target for the reason I've stated 
earlier, and they're going to remain a target, including Spain 
and Spain's citizens. Europe more broadly should not fool 
itself into complacency by thinking that it can opt out of 
terrorism by distancing itself from Washington, i.e., our 
policies. Terrorism is not a selective threat, and I believe 
that's the lesson most Europeans are absorbing right now.
    Second, it's also true that an overwhelming majority of 
Spaniards opposed the war in Iraq long before March 11 as did 
the vast majority of the European population which is another 
thing that we, Democrats and Republicans, suffer from.
    We think if we get the political elites to support our 
position that somehow we've done the deal. We've paid virtually 
no attention to the public diplomacy of trying to influence the 
populations of the countries of France, Germany, Spain, et 
cetera.
    So, I think that well before the election, Mr. Zapatero 
campaigned--I don't think, I know he campaigned on a platform 
that he'd remove Spanish troops from Iraq absent a new U.N. 
mandate. This is not a Munich sellout in my view to terrorists, 
as some alarmists have claimed. Rather, I think it's a lesson 
for the United States that in a community of democracies, it's 
not enough to convince another country's leaders. You've got to 
go beyond that.
    Unfortunately, in the run-up to the war in Iraq, we did a 
fairly bad job of convincing not only leaders but populations, 
and after the war, in the first flush of success, instead of 
bringing the Atlantic Alliance back together again, we 
continued to show an overwhelming disdain for our allies who we 
believed were against us.
    Third and finally, it appears to me that many people voted 
against the conservatives in Spain because they believe the 
government manipulated the information. I think that's the 
single big reason--I'm unaware of any exit polls--just my guess 
as a plain old politician. As Emerson says, society's like a 
wave, the wave moves on but the particles remain the same.
    They ain't made a new brand of politician in a long, long 
time in Western Europe or here, and my instincts as a 
politician tell me that the perception of manipulation of the 
information for political benefit in the upcoming election, 
meaning several days later, probably played a larger part in 
the reaction than the Spanish people had in any of the above, 
but I don't know that, but it clearly played some part, and 
it's becoming--it's very clear that it's important to level 
with your people.
    One of the positive things that came out of September 11, 
and I trust will further hasten after March 11, is a sharper 
recognition that we have to cooperate in what is bound to be a 
long and very diffuse war against a very diffuse enemy and 
despite our differences on Iraq, we enjoy a broad consensus on 
the need to share information, facilitate cross-border 
investigation, apprehend terrorists who are planning to attack, 
and I think the election of Mr. de Vries is a recognition of 
the need to try to figure out how to do that, although it's 
going to be a whole lot harder.
    You think we have trouble here. We couldn't even get, as 
you'll remember, Mr. Chairman, when--actually, just before you 
got elected, I introduced legislation almost the same as the 
Patriot Act when a bunch of whacko Minutemen and White 
Supremacists were viewed as having been responsible for 9/11 
and all our right-wing colleagues said no, no, no, no, we can't 
do that. That is unfair, privacy, freedom, militias, and we 
finally got it right. It took 9/11 to get it right.
    But guess what? We're not talking about taking on the 
militia men in Montana here. We're talking about taking on 
another country's view about how to deal with this and they 
haven't even figured out how to get a commerce clause for 
Europe yet fully. So, de Vries has a real problem, but it seems 
to me it's a recognition that they know they've got to do 
something more than they're doing now.
    Let me conclude by asking unanimous consent, Mr. Chairman, 
that the remainder of my statement be put in the record and say 
that I think that we got a lot of work cut out for us, and I 
hope we do what has been suggested. I'm going to ruin his 
reputation by acknowledging what Mr. Kagan suggested 
immediately after 3/11 in an op-ed piece in the Washington 
Post, and that is, we need Europe and Europe needs us. We need 
each other badly, whether we know it or not, and it's about 
time we get about putting aside the things that marginally we 
disagree on and focus on what we agree on.
    People wondered how Jesse Helms and Joe Biden got along so 
well, which we did and became friends, with fundamentally 
different views of how to deal with foreign affairs when he was 
chairman and I was chairman of this committee. It's a simple 
reason.
    I went into Jesse's office and said, `esse, I'm not 
Clayborn Pell. I'm now in charge for the Democrats of this 
committee. We have a choice. We can play this flat or we can 
play it round. You want to fight all the time, I'm your guy. 
I'm your guy. But if we can agree on what we agree on and focus 
on that first and then move to the things we have disagreement, 
we can do something. And to the shock of everyone, Jesse Helms 
led the fight to fund the United Nations. Jesse Helms. Jesse 
Helms. Because we decided to focus on what we agreed on and the 
consensus that grew from that was us getting back in good stead 
in the U.N.
    I think that's what we've got to do in Europe, and I hope 
we take your advice, Mr. Kagan. I'm not quite sure how we get 
from here to there, but I know one thing, if we don't, we got a 
real serious security problem.
    I thank you for listening, Mr. Chairman, and I thank you 
for your indulgence, and I look forward to hearing the 
witnesses.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, thank you for holding this important hearing. It is 
appropriate that we are meeting today to discuss the March 11 terrorist 
attacks in Madrid, and the implications that this terrible day will 
have for our transatlantic relationship.
    After September 11, I feared that it was only a matter of time 
before Europe would suffer the same kind of murderous violence that we 
experienced in New York and in Washington. Now, Europeans have their 
own images of violence and death and their own date--which will come to 
define us as governments and as people.
    Spain has grappled with homegrown terrorism from ETA, just as the 
United Kingdom has suffered at the hands of the IRA, Italy from its Red 
Brigades, and Germany from the Baader-Meinhof Gang.
    But this newest form of terrorism is of an entirely different 
scale. It is not just political, it is existential. With al-Qaida we 
come to face-to-face with an enemy whose goal is nothing less than to 
kill as many people as possible, and in so doing, bring an end to the 
way of life we in the West have worked so hard to achieve.
    So we look to a Europe that, like the United States, is bound to 
change in the coming months as it grapples with such a diffuse and 
pernicious new threat.
    It seems to me that there are three distinct lessons to draw from 
the Spanish elections held a few days after the Madrid terror attacks.
    First, some people voted against the Conservatives because they 
believed Prime Minister Aznar's alliance with the U.S. in Iraq made 
Spain a terror target.
    That's a very human reaction, but also a very misguided one. There 
is no appeasing al-Qaeda and its allies. Every liberal democracy is a 
target, and will remain a target, including Spain and its citizens. 
Europeans more broadly should not fool themselves into complacency by 
thinking they can ``opt out'' of terrorism, by distancing themselves 
from Washington. Terrorism is not a selective threat. I pray that's a 
lesson Europe does not learn the hard way.
    But second, it is also true that the overwhelming majority of 
Spaniards opposed the war in Iraq long before March 11, 2004. And well 
before the elections, Mr. Zapatero had campaigned on a platform 
promising to remove Spanish troops from Iraq, absent a new UN mandate.
    So this is not a ``Munich'' sell-out to terrorists, as some 
alarmists have claimed. Rather, it's a lesson for the United States 
that, in a community of democracies, it is not enough to convince 
another country's leaders of the policy we want to pursue--we also have 
to convince its people.
    Unfortunately, in the run up to Iraq, we did a bad job convincing 
others that attacking Iraq was an urgent necessity.
    And after the war, in the first flush of success, instead of 
bringing the Atlantic community back together again, we continued to 
show disdain for our democratic allies who had disagreed with us.
    Third and finally, it appears that many people voted against the 
Conservatives because they believed the government manipulated 
information to point the finger at ETA, not al-Qaida. There's a lesson 
here for all liberal democracies, including the United States. 
Governments have to level with their own people, especially on matters 
of war and peace.
    Unfortunately, as is becoming clearer and clearer, the Bush 
administration failed to level with the American people before the Iraq 
war in terms of the time, troops and treasure securing the peace would 
require . . . in terms of Iraq's alleged complicity in the events of 9/
11 and ties to al-Qaeda . . . and in terms of the threat posed by 
Iraq's WMD.
    One of the positive things that came out of September 11, and I 
trust will be further hastened after March 11, is the sharper 
recognition that we must cooperate in what is bound to be a long and 
difficult struggle against a determined but diffuse enemy.
    Despite our differences on Iraq, we enjoy a broad consensus on the 
need to share information, to facilitate cross-border investigations 
and to apprehend terrorists who are planning to attack our people.
    But much more needs to be done within Europe and between Europe and 
the United States.
    I applaud the European Union's efforts in Brussels last week to 
address the common threat to its security from terrorism. Their 
appointment of Mr. de Vries as the European Union's coordinator for 
counter-terrorism, is a positive step forward.
    Mr. De Vries will have his work cut out for him. First of all, he 
will need to guide the EU into really getting serious about dealing 
with terrorism, for example by walking the thin line between protecting 
personal data and carrying out legitimate counter-terrorism 
investigations.
    Moreover, he will have to overcome bureaucratic obstacles. After 
September 11 the EU agreed to a number of measures to share information 
about terrorist threats. Its record on implementing those agreements is 
spotty.
    Mr. de Vries will need to move the EU into new levels of law 
enforcement cooperation that undercuts the jealously guarded national 
fiefdoms of EU member states.
    Each of our democracies faces a classic dilemma. We enshrine 
individual rights to due process, fair and speedy trials, and privacy--
but these very rights are exploited by those who are prepared to use 
any means to undermine our democracies. Striking the right balance is 
not easy, but the emergency situation we are in makes ``business as 
usual'' simply untenable. The first responsibility of a state is the 
safety of its citizens.
    I am convinced that the struggle against an existential enemy that 
uses terror as a tool and will use weapons of mass destruction if it 
acquires them must involve the closest possible cooperation with the 
largest number of countries.
    This cooperation will be first and foremost with our allies, but 
also with the Islamic world.
    Despite all of our current differences, Europeans and Americans 
still look to each other before they look to anyone else when it comes 
to combating our many common problems. On both sides of the Atlantic, 
we must rethink our approach, and renew our commitment to one another.
    The Bush administration must abandon its reflexive unilateralism 
and its disdain for genuine dialog, for working with allies and for 
international institutions.
    Similarly, the European Union has to make a greater commitment to 
enforcing the rules of the international community, not making excuses 
for those who violate them.
    Much has been made of the fundamentally different way that the U.S. 
and European governments supposedly view the challenge of terrorism. 
Washington sees it as a ``war,'' while Europeans view it essentially as 
a criminal matter.
    If, in fact, we are in a ``war,'' it is fair to ask why the Bush 
administration has not demanded real sacrifice from the American 
people. Why, for the first time in our history, have we combined waging 
war with instituting a massive tax cut? Why, if we are in a ``war,'' is 
Homeland Defense so grossly under-funded? These are domestic issues, 
but ones with profound international significance.
    What remains clear after September 11 and March 11 alike is that 
the only credible course forward is to work together, the EU and the 
United States, to secure and rebuild Iraq and Afghanistan . . . to help 
resolve the Israeli-Palestinian conflict . . . to prevent the world's 
most lethal weapons from getting into the most dangerous hands . . . 
and to address the root causes of the poverty, isolation, and 
repression in which many of the peoples of the Greater Middle Eastare 
mired.
    I look forward to hearing from our witnesses this afternoon.

    Senator Allen. Thank you, Senator Biden. Your entire 
statement will be made part of the record. You said how al-
Qaeda and Osama, their view is that there should not be really 
a separation of church and state, that the state ought to be 
advocating----
    Senator Biden. One and the same.
    Senator Allen [continuing]. Religious views. Most 
appropriately, if you look into history, on this date in 1492, 
beyond Magellan, the rulers in Spain on this date made a royal 
edict saying to Jewish people in Spain that they had to convert 
to Christianity, and if they did not----
    Senator Biden. Even worse, they said Catholicism. I'm a 
Catholic.
    Senator Allen. OK. I was trying to be diplomatic. Thank 
you, Joe. Working together.
    Senator Biden. Called the Inquisition.
    Senator Allen. Jews who did not want to give up their 
religious beliefs or their culture went to North Africa, the 
Netherlands, and ultimately the Americas.
    In 1502, that same sort of royal edict that was used 
against the Jews on this date in 1492 was enunciated against 
the Moors or the Spanish Muslims. So, not that I think Osama 
bin Laden or any of these maniacs are listening or care about 
the accuracy of history, the implications of that sort of 
intolerance is exactly what happened to Muslims and to Jewish 
people, and is why in this country one of our first freedoms is 
the freedom of religion, of individual conscience. One of the 
reasons that we separated from the monarchy in Britain was for 
that first freedom of individual rights and that is freedom of 
religion and one's rights not enhanced nor diminished on 
account of one's religious beliefs.
    So, with that little history lesson, let us go on to our 
second panel, and this is an outstanding panel.
    First, Robert Kagan. Mr. Kagan serves as an senior 
associate at the Carnegie Endowment for International Peace and 
is a member of the Council on Foreign Relations. Previously, he 
worked in the Department of State from 1985 to 1988 as a Deputy 
for Policy for the Bureau of Interamerican Affairs and as 
principal speech-writer to the Secretary of State. He also was 
the foreign policy advisor to Congressman Jack Kemp in 1983.
    Robin Niblett is the executive vice president with the 
Center for Strategic and International Studies. He's also a 
senior fellow with the Center's Europe Program where he 
specializes in the U.S.-European security and economic 
relations area and in the ongoing process of European political 
and economic integration. He is the author or contributor to a 
number of books and reports, including the ``Atlantic Alliance 
Transformed'' and ``From Shadows to Substance: An Action Plan 
for Transatlantic Defense Cooperation.''
    Philip Gordon is a senior fellow and director of the 
Brookings Institution's Center on the United States and Europe. 
He had previously served as Director for European Affairs at 
the National Security Council, a senior fellow for U.S. 
Strategic Studies, International Institute for Strategic 
Studies, and as a professor at Johns Hopkins University School 
of Advanced International Studies.
    And finally, James Dobbins serves as director of the Rand 
Corporation's International Security and Defense Policy Center. 
As a diplomat, he has served numerous Presidents in a variety 
of State Department and White House posts, including Assistant 
Secretary of State for Europe, Special Assistant to the 
President for the Western Hemisphere, Special Advisor to the 
President and Secretary of State for the Balkans, and 
Ambassador to the European Community.
    Thank you, all for being here. So, Mr. Kagan, will you 
please begin your testimony.

STATEMENT OF ROBERT KAGAN, SENIOR ASSOCIATE, CARNEGIE ENDOWMENT 
                    FOR INTERNATIONAL PEACE

    Mr. Kagan. Thank you, Mr. Chairman, and let me also thank 
you for holding this hearing. I happen to think that this U.S.-
European crisis in the aftermath of the bombings in Madrid is a 
matter of some urgency, and I don't get the sense really 
looking at Washington as a whole that everyone understands what 
a matter of urgency it is. I'm happy to see that this committee 
does, and I appreciate both your efforts in this regard.
    My concern is that March 11, rather than leading Europeans 
and Americans to speak in one voice against the common threat 
that we all feel, has actually had arguably the opposite 
effect. The United States has gone on along its course without 
any particular deviation in policy or rhetoric even and Europe, 
in my view, has turned more in on itself in this period.
    I think, by the way, something that's totally 
understandable, but in the interests of the transatlantic 
relationship not a good thing after a crisis like the bombings 
in Madrid.
    I think it is also certainly true, as Ambassador Black 
says, that at the working level, the counterterrorism efforts 
and cooperation go on as they have been, and I want to 
emphasize that there is not necessarily a contradiction between 
the kind of political deviation that we're having, the 
political divisions we're having with ongoing cooperation in 
the counterterrorism efforts.
    I also think it is true that Europeans as a whole, since 
Madrid, understand that they are possible targets and that they 
have indeed heightened their awareness of the threats that they 
face.
    What I do worry about, however, is that over time, if the 
divisions between the United States and Europe are not heeled 
and in fact do grow wider, that eventually, I don't know when 
exactly this moment will come, there could be a spillover from 
the sort of grand political disagreement to the working level, 
and I would only harken back to events of recent years.
    Some of us identified a growing gap between the United 
States and Europe, but nevertheless assumed that when something 
like the Iraq War came along that France would be with us, but 
it turned out that this gap had practical consequences when we 
went to the U.N. Security Council and lost France's vote.
    We also have obviously seen the results of the Spanish 
elections, so that even though there was this great 
disagreement between the Spanish people and the U.S. 
Government, we thought we could continue along at the working 
level, so to speak, but the political system intruded at the 
working level in a very dramatic fashion.
    So, I do think that we shouldn't be complacent about 
thinking that things will always be working out at the working 
level even if, at the broadest level, we're facing serious 
divisions.
    Now, one of the things I learned living in Europe for 3 
years, as I did recently, is that it's a big mistake that 
Americans constantly make in thinking about how Europeans will 
respond to certain events, to basically view Europeans as 
Americans who speak French a lot better than we do. I think 
it's really important to understand that the world looks 
different in Europe than it does in the United States, and that 
the response that we would anticipate we would make were we in 
their shoes we can't count on them necessarily making.
    Now, I won't bother getting into any great analysis of what 
the Spanish elections meant, what exactly tipped the scale in 
that election. I don't think anybody knows. I think it is a 
fair assumption, however, that the European public reaction to 
that election was that the Spanish people felt that their 
government had made a terrible mistake joining in the war 
against Iraq because that war was a mistake and that the 
Spanish people were punished by al-Qaeda for engaging with the 
United States in Iraq.
    The fact that Spain has also engaged with the United States 
in Afghanistan and that al-Qaeda is involved in that, it 
doesn't matter, you know. If the perception is that Aznar took 
Spain down this course, that's what's going to stick in the 
European public imagination, and whatever the electoral results 
are, I haven't been in Spain recently, but I have friends who 
have been, and there are murals on the wall that have pictures 
of Bush, Aznar and Blair and saying they're responsible for the 
200 dead in Madrid and that's just a reality.
    So, let us not assume that Europeans are all doing a 
careful rationale calculation that they really understand that 
this wasn't about Iraq, et cetera, et cetera. I do think that 
there's a very great chance that they do feel that way.
    Second, objectively, we have suffered the loss of Aznar. 
That is a reality in Europe now. He was a pillar of pro-
American feeling and policy in Europe. I think that we were 
going to suffer the loss of Aznar even if Rajoy had been 
elected, by the way, because I don't think that Rajoy was going 
to be quite what Aznar had been, but now we've suffered a 
complete reversal.
    There's no linking that reality, and we have to understand 
again, there's a European dynamic to all of this that has 
nothing to do with the war on terrorism per se, but a lot to do 
with internal politics of Europe, the internal dynamics of 
Europe, and I think we have to realize that this defeat of 
Aznar's party and the victory of the Socialists was a great 
political victory for Jacques Chirac who was seeking to defeat 
Aznar and his people all along and punish them for their 
support of the United States, and that the balance in Europe 
has shifted in a direction that France would have wanted it to 
shift in, and this has to do with issues concerning the 
constitution, for instance.
    I think we need to understand, again looking at it in the 
European mind, after the horror of the attack, after the 
morning of the attack, about the attack, after the 
determination to strengthen their terrorist activities in 
response, I would say the first and most prominent European 
reaction was, oh, good, now we can pass the constitution. That 
is the dominant reaction, I would say, in the political classes 
in Europe and possibly even at the public level.
    So, we need to understand it would be very unusual behavior 
on the part of France and on the part of Gerhardt Schroeder in 
Germany not to want to take advantage of the enormous victory 
that they've had to try to steer Europe in the direction that 
they want to go in.
    More generally, I would say that even on the 
counterterrorism front, that Europe has looked for European 
solutions to this problem. Yes, they've named a coordinator. I 
wish him the best of luck coordinating the 25 countries' 
counterterrorism and intelligence sharing which you can only 
imagine what they're going to be like, but one thing that they 
did not do, Europeans did not do, any Europeans as far as I've 
been able to see, was say this is something that we need to 
work with the Americans on.
    I think Europeans looked internally to a European solution 
to this problem, and I also think that now we are in a 
constitutional phase in Europe and that Europe is going to 
continue to be preoccupied by the constitutional issues and is 
going to be looking inward rather than outward.
    The fact is Blair is now isolated, feeling vulnerable 
within Europe, if not within his own electoral situation and 
that the trends in Europe therefore do not head in the 
direction of closer relations with the United States, in my 
opinion. I'm sure there are those who would like to see that, 
but I don't. I think the general trend is otherwise.
    Let me just conclude by trying to answer the question what 
can the U.S. do about any of this, and I think that, you know, 
I'm sure my colleagues are going to talk about the criticisms 
that should be launched at the Bush administration. I have 
leveled my own criticisms of the Bush administration, but I 
don't think anybody should kid themselves that even the best, 
the most capable diplomacy in America could necessarily solve 
these problems. I think they are much deeper than one 
administration, but there are nevertheless things that we can 
and should be doing.
    It seems to me one thing we must be doing, and I'm a little 
shocked that we haven't done it so far, is to get ourselves 
into the European conversation. I'm rather amazed since Madrid 
how little visibility American officials have had in Europe. 
It's very good that Secretary Powell went to the funeral. I 
think that was very important, but I have not seen what I would 
have thought should have been the parade of senior American 
officials going to Europe and entering their conversation about 
how they're going to respond to terrorism. They may not want us 
there, but it's in our interests that we be there, and we need 
to remember we're a big country and we're hard to ignore and we 
can help shape that discussion. I think we have so far failed 
to do that.
    Second, public diplomacy. I think that, again as Senator 
Biden, both of you have said, it's very important that we 
address the European peoples and not simply engage at the 
working level.
    I know, if I'm not mistaken, that the public diplomacy 
budget in the State Department for Europe has been cut, not 
increased. I don't understand that decision, quite honestly. 
It's almost as if we're saying we just don't have a prayer, 
it's not worth the trouble. I think we should be increasing our 
efforts in Europe.
    I understand in particular that exchanges have been cut 
rather dramatically which I think is a mistake. Europeans need 
to see more Americans, whether they agree with them or disagree 
with them. We need to be part of their conversations.
    Let me also say in this regard that I believe that there 
are important roles for Members of Congress and Senators. 
Europe needs to hear bipartisan voices expressing the views of 
Americans generally in Europe. I think it would be good if 
Europeans saw more congressional leaders on a more regular 
basis, especially since Madrid.
    And then, finally, let me just say that there is nothing 
that we can do that is more important in terms of giving 
ourselves any prospect of improving relations with Europe than 
succeeding in Iraq. The more Iraq appears to be failing, 
difficult, dangerous, out of control, the more difficult it 
will be for us to try to knit things up with our European 
partners.
    There is something about success succeeding, and I think we 
need to make sure in the interests of transatlantic relations, 
not to mention in the interests of the Iraqi people, that we do 
a good job in Iraq and continue to do so.
    So, thank you very much.
    Senator Allen. Thank you, Mr. Kagan, for your insight, and 
now we'll hear from Dr. Niblett.

   STATEMENT OF DR. ROBIN NIBLETT, EXECUTIVE VICE PRESIDENT, 
         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Dr. Niblett. Thank you very much, and let me echo Bob 
Kagan's words of thanks to you, Mr. Chairman, to Senator Biden, 
for holding this hearing at such an important time.
    I want to condense my written comments down to three 
questions.
    Senator Allen. Dr. Niblett, and for all of our witnesses, 
if you would want to summarize your comments, we have your 
written statements which will be made a part of the hearing 
record.
    Dr. Niblett. Thank you very much, Mr. Chairman.
    First of all, let me say that I believe the elections in 
Madrid do bear quick inspection and I'll do that in a second. 
Second, obviously, I want to look at the transatlantic 
implications of the attacks, and third, following the same 
pattern as my predecessor, look at the next steps that we could 
take.
    Let me just talk about the insights we can glean from the 
election in Madrid first. In my mind, there's no doubt the 
terrorist attacks swung the election. At the same time, there's 
no doubt in my mind that this was not an act of appeasement. 
Comments have been made already about the long and bloody 
battle the Spanish have been engaged with against the Basque 
terrorist group ETA, and I believe that the Spanish will fight 
just as vehemently and implacably against al-Qaeda in the 
future.
    Nonetheless, there was a second reason why matters turned 
as sharply as they did, and I think we've touched on this point 
already. In essence, Spanish people, as Europeans, look at the 
war on terror in a totally different way. There is maybe not a 
majority view, but certainly a strong view in the United States 
that the war in Iraq corresponded with the war on terror. To a 
certain extent, the two are synonymous.
    I think that the view in Europe right now is that one was a 
distraction from the other, that Europe is less safe as a 
result of the war in Iraq, and the Spanish people, as others 
might do if they're given the opportunity, would choose to 
punish those who supported the United States in this action, 
and I'll explain a little bit more about that in a minute.
    Turning to transatlantic relations and the impact on 
intraEuropean relations of the attacks in Madrid, I think that 
the most profound impacts have been at the intraEuropean level. 
First of all, we have lost the ``New Europe.'' The idea of a 
pool of countries that the United States could draw upon in 
order to pursue its foreign policy priorities has gone. 
Somewhat uniquely, the United Kingdom and Spain formed the core 
of the ``New Europe,'' much as France and Germany formed the 
core of the ``Old Europe.''
    With Zapatero now turning his direction toward a more 
traditional Spanish foreign policy of balancing transatlantic 
relations with Europe, the ``New Europe'' in essence has gone, 
but I do not believe we're going to see a domino effect of 
other leaders. Each country has its own peculiar concerns and 
being against the war in Iraq is not something that necessarily 
helps you electorally, as the French Government discovered last 
weekend.
    However, the room for maneuver for these governments that 
supported the United States in its war on terror and that 
specifically came to that standard on Iraq are clearly 
circumscribed, and I would draw the committee's attention to 
the Global Attitudes Project that just came out that has some 
very interesting conclusions on popular attitudes on the amount 
of confidence one can apply to the United States in the war on 
terror and where even the United Kingdom, 41 percent now do not 
trust U.S. motives. Also on the desire for Europe to have a 
more independent foreign policy, where you would expect and you 
sure get French support, this majority exceeds 56 percent of 
United Kingdom respondents also making the same point. This is 
somewhat worrying.
    Second, on the impact of transatlantic relations, I don't 
want to go into all the points, but we have relaunched European 
construction at a time when it seemed lost, when the expansion 
to 25 seemed to put Europe into the doldrums. There is at least 
initiative and movement which has emerged again, streamlined 
decisionmaking, perhaps a new EU Council President.
    I was struck most, though, from the recent EU summit on 
March 26 by the passing of a solidarity declaration. Let me 
just quote a couple of words from this because I think they're 
interesting. The EU members state that they will ``mobilize all 
of the instruments at their disposal, including military 
resources'' to prevent a terrorist attack. There's semblance 
here to the NATO Article V passing, and this really carries an 
echo that Europeans will want to follow through on.
    Personally, I believe that greater European integration may 
be a plus looking forward to the transatlantic relationship. 
So, I do not see this as a negative, and I would also, as my 
third point here, want to draw attention to the fact that I 
think for the first time since the end of the cold war, Europe 
and the United States are converging around the sense of a 
common threat. This is no mean feat. This should not be 
ignored.
    The European security strategy document that came out last 
December pointed to the threats of international terrorism, 
weapons of mass destruction proliferation, state failure, 
organized crime, as the central threats to European security.
    Now, this matched, as many people have commented, exactly 
the U.S. national security strategy. There were some claims 
that perhaps this was mimicking or just trying to ingratiate 
themselves with the United States. I think after March 11, we 
cannot assume that conclusion anymore.
    More importantly, Europeans are conscious of the dangers. 
They are close to the Middle East. They have a very large 
Muslim population. They have porous borders. They have 
uncoordinated national law enforcement agencies. Although 
intelligence agencies have penetrated their local terrorist 
groups, ETA, IRA, they have not a clue about many of these 
larger Muslim groups, as Spain proved so painfully. And they 
know well, I think, that just because Spain was a target, it 
doesn't mean that countries that did not support the United 
States in Iraq won't also be targets. Everyone supported the 
war against al-Qaeda in Afghanistan and France's passing of the 
banning of veils in public schools is something that is already 
drawing the attention of Muslim groups.
    My fourth point on transatlantic relationships is that even 
though we are coming together on a common sense of the threat, 
I am obviously concerned, as is everyone, that we don't have 
the same idea of the response, whether tactically or 
strategically. We could do a whole hearing, I would imagine, on 
that issue.
    Let me just point out two points specifically on the war on 
terror. At heart, Europeans start from the premise that in the 
war against terrorism, the effectiveness of military action is 
limited. It can be effective. It is important, but it will not 
see you through to the end.
    A lot of the frustration with the U.S. decision to go to 
Iraq was because, although they were with the United States in 
Afghanistan, they were looking for consolidation in the second 
phase that wasn't more fighting to follow through on it.
    Second, central to European thinking, I think, in the war 
on terror, Europeans do see the war against terrorism as a 
battle for legitimacy, not a battle for victory, and Americans 
perhaps sometimes start from the view that they have a sense of 
what is right and wrong, therefore what they do must be 
legitimate. The Europeans are very cynical about government. 
They're especially cynical about governments acting 
internationally, and they look for the coverage of 
international law in that case and hence a very different 
European attitude potentially to the war on terror as well.
    Let me wrap up by the following steps we could take. 
Clearly, we must avoid what happened in Madrid and the 
reactions that might follow driving a deeper wedge on what is 
already a strained transatlantic relationship and giving the 
terrorists a second victory.
    First step. I would completely endorse the views of my 
predecessor who spoke just now. We cannot afford to lose Iraq. 
We're in there together. Europeans have as much, if not more, 
to lose. They're right next to what could become a second 
conflict zone in the Middle East. They have large Muslim 
populations, over 12 million. They heavily depend on gulf 
energy imports.
    I do not believe that Spanish withdrawal on June 30 is 
foreordained. It's a very tight timeline to do, to be able to 
act on it, but every effort must be made with the transition of 
political authority to try to help. To have the Spanish keep 
their troops there would have huge symbolic value and would 
also open the potential for other countries perhaps to join the 
coalition going forward.
    I would mention Afghanistan, where I think that war must 
not be forgotten, and the fact that NATO is operating there so 
clearly is something of huge importance from a transatlantic 
perspective.
    One should always mention the Middle East. Again, I don't 
want to go into this too far, but the fact is that the United 
States and Europe must work together on a joint Middle East 
strategy. Either side cannot do it by themselves and that's an 
area of central importance.
    What I want to do as my final point and perhaps most 
important one, is pick up on some comments that Senator Biden 
made earlier. Practical steps between the United States and 
Europe going forward to prevent, deter, and be able to recover 
from terrorism could be as important a central mission for the 
transatlantic relationship going forward. This is a matter of 
domestic policies, legal procedures, technological standards in 
some cases, and organizational agreement.
    The EU has done well to be focused on March 26, and on the 
declaration on combating terrorism. It struck me how little had 
been achieved in the 2 years since September 11 and how much 
remains to be done, but working with the United States and 
preventing the transatlantic space from being one that Al-Qaeda 
can operate in is surely a worthy and important mission.
    I would point to the upcoming EU and NATO summits and 
certainly hope that the governments on both sides will look to 
standing institutional arrangements that might bring together 
officials from home affairs, justice, law enforcement, 
intelligence and emergency response and see if we can develop a 
complementary approach to the war on terror.
    I would note that precisely one of the obstacles to U.S.-
European cooperation that has been pointed out in the last 2 or 
3 years, the disparity in military spending between the United 
States and Europe, need not be an obstacle to transatlantic 
cooperation in the war on terror. It is not military force that 
will in every case be most important, but organizational 
coordination, political will, and bureaucratic flexibility.
    In conclusion, I think the attacks in Madrid have 
crystallized the dangerous new post-cold war security 
environment we've entered. The United States and Europe 
definitely face a common enemy and we may have entered the war 
on terror through different gateways, the United States through 
September 11, Europe through decade long national terrorist 
struggles, but after March 11, we clearly face a common enemy 
and we need to develop common responses.
    Thank you very much.
    [The prepared statement of Dr. Niblett follows:]

                Prepared Statement of Dr. Robin Niblett

                              INTRODUCTION

    Chairman Allen, members of the committee, thank you for convening 
this hearing at yet another critical juncture in the history of 
transatlantic relations. Thank you also for giving me the opportunity 
to share with you my thoughts on how the terrorist attacks in Madrid 
might affect relations between the United States and Europe and 
transatlantic cooperation in the war against international terrorism.
    Let me say at the outset that the terrorist attacks of March 11, 
2004 in Madrid have had a profound effect on the political landscape in 
Europe. Their secondary, inevitable effect will be on transatlantic 
relations. However, the ways that the attacks will affect transatlantic 
relations and also transatlantic cooperation in the fight against 
international terrorism are not pre-determined. While a deepening of 
the transatlantic rift that broke open a year ago in the lead-up to the 
war in Iraq is a possible outcome, it is not a necessary one.
    First, I will touch on the way that the Spanish reaction to the 
attacks exposes a serious challenge to the United States in terms of 
European support for the war on terror. I will then turn to the impact 
that the attacks have already had on intra-European relations and their 
potential implications for the transatlantic relationship. Next, I will 
assess whether the European reaction to the attacks (and the U.S. 
reaction to the European reaction) will drive the wedge deeper between 
the two sides of the Atlantic. There is no doubt that the U.S.-European 
alliance already faces a number of long-standing structural tensions. 
Different strategic approaches to combating international terrorism 
have deepened these tensions. However, the arrival of Islamic extremist 
terrorism on the European continent may in fact provide the impetus for 
the U.S. and European governments to start building a more coordinated 
approach to this critical aspect of their common security concerns.

               SPANISH REACTIONS AND EUROPEAN CONCLUSIONS

    It is hard to dispute the fact that the terrorist attacks on March 
11, 2004 swung the Spanish general election in favor of the Socialist 
Party, led by Jose Luis Rodriguez Zapatero. Collectively, some three 
and a half million voters either abandoned the ruling party or added 
their vote to the Socialists compared to the previous election, 
contradicting the poll numbers that stood at the start of that fateful 
week.
    Numerous American commentators and some senior legislators 
immediately accused Spanish voters of appeasing the terrorists by 
throwing out a leader--Prime Minister Jose Maria Aznar--who had stood 
shoulder to shoulder with the Bush administration in its strategy to 
fight global terrorism. Others--and I include myself in this group--
argued that this was a simplistic interpretation of the events in Spain 
between March 11-13. While some voters may indeed have wanted to punish 
Prime Minister Aznar for putting Spaniards directly in the terrorists' 
cross-hairs, many more chose to punish him for the government's 
apparent determination to pin the blame for the attacks on the Basque 
separatist group ETA, even when the evidence of the group's guilt was, 
at best, inconclusive and, at worst, lacking.
    The Spanish instinct when faced with terrorism is not to appease. 
One should not forget that successive Spanish governments, socialist 
and conservative, have been fighting ETA terrorists implacably for 
nearly three decades, at a cost of some 850 lives over this period. The 
Spanish people are united in this fight, and Prime Minister Aznar's 
hard line on ETA had been one of the important elements of his 
electoral support ahead of the election.
    But there was a second reason why the electorate turned so swiftly 
against Prime Minister Aznar's party after March 11, and this reason 
carries wider implications for the transatlantic relationship and the 
war against terror in the months ahead. The impression that the ruling 
government misled the public by blaming ETA also reminded Spaniards 
that the decision to go to war against Iraq was based on the apparently 
false premise that Saddam Hussein represented an immediate danger 
because of his possession of weapons of mass destruction (WMD). 
Throughout Europe, the failure to find WMD in Iraq has severely 
undermined public confidence in the motives that drove the United 
States to go to war. And it has weakened the position of European 
leaders who chose to back the U.S. administration against the wishes of 
their public opinion.
    Furthermore, the fact that the terrorist attacks in Madrid took 
place after the overthrow of Saddam Hussein has made not only 
Spaniards, but also other Europeans feel that they have now been placed 
on the terrorists' target list as a direct consequence of participating 
in a war that should not have been fought. The overwhelming conclusion 
for most Europeans, therefore, is that the terrorist threat to them has 
widened and deepened as a result of the invasion of Iraq. They now feel 
less rather than more safe and they hold the United States and 
governments that supported the war responsible.

                            A CHANGED EUROPE

    The impact of the conservatives' defeat in Spain has been most 
profound for intra-European relations. It has swung the pendulum of 
power back to the continental members of the European Union, who had 
been derided as representing ``Old Europe.''
    In his second term as Spain's Prime Minister, Jose Maria Aznar had 
become increasingly frustrated with the desire of the French and German 
governments to re-establish themselves as the drivers of the process of 
European integration. After two decades of dramatic economic 
modernization and emergence as one of the drivers of the EU's 
Mediterranean and transatlantic agendas, Aznar felt that Spain deserved 
a place in the core of EU decision-making.
    As someone who had personally escaped a terrorist attempt by ETA on 
his life shortly before first becoming Prime Minister, he also 
supported instinctively President Bush's uncompromising stance in the 
war on terrorism. And, like Tony Blair, he saw a close relationship 
with the United States as a route to increased influence within the EU 
hierarchy. The debate over the merits of attacking Iraq gave Spain the 
opportunity to place itself firmly in the camp of the so-called ``New 
Europe'' that rejected the latent anti-Americanism and deference to 
Franco-German leadership of the ``Old Europe.''
    Whereas the United Kingdom sought to repair during the latter half 
of 2003 the diplomatic damage that the Iraq debate had caused to its 
relations with France and Germany, Spain stepped directly into a second 
confrontation on the EU stage. This concerned the proposal contained 
within the EU constitutional convention that Spain cede some of the 
voting weight within EU decision-making bodies that it had secured a 
year earlier at the Nice summit. In December 2003, Spain and Poland 
refused to compromise and the long-awaited agreement on a first EU 
constitution fell apart. The EU was plunged into confusion.
    Within two weeks of the Madrid bombings, the specter of gradual 
intra-European disintegration that the summit's failure had raised has 
receded. At the EU summit in Brussels on March 26, 2004, following 
statements from Jose Luis Zapatero that Spain would reclaim its 
position as a committed member of the European Union, EU leaders 
proudly announced their expectation that the new constitution could be 
signed by the summer. Once again, an unexpected crisis has served as a 
catalyst for a further spurt of European integration.
    Important among the EU constitution's proposals are a streamlining 
of EU decision-making better to accommodate the ten new members that 
will join the EU this May and the creation of a new EU Foreign Policy 
head combining the responsibilities of Javier Solana and External 
Affairs Commissioner Chris Patten. More important, perhaps, is a re-
gained sense within the European Union of common mission and purpose 
following the terrorist attacks in Spain. This sense of bonding around 
the tragedy of Madrid was reflected in the summit's decision to approve 
a ``Declaration on Solidarity Against Terrorism'' that calls upon each 
EU member state ``to mobilize all of the instruments at their disposal, 
including military resources'' to prevent a terrorist threat against 
another, and to protect and assist it in the event of such an attack.

                   IMPACT ON TRANSATLANTIC RELATIONS

    The impact of these events on transatlantic relations and 
cooperation in the war on terrorism are still hard to discern. One 
clear consequence is the disappearance for the time being of the ``New 
Europe'' as a distinct collection of countries sharing an unquestioning 
commitment to support the United States in the pursuit of its foreign 
policy and security priorities. ``New Europe'' still exists within the 
European Union, and tensions between new and old EU members will 
persist on internal issues, such as access to agriculture subsidies and 
EU financial assistance. However, the United States can no longer count 
on a ``New Europe'' pool of countries from which to try to recruit 
European participants into coalitions of the willing to tackle global 
crises or pursue its vision of the war against international terrorism.
    It is not simply the fact that Aznar's defeat has removed one of 
the central members of the ``New Europe.'' Nor is it the case that 
leaders such as Tony Blair, Silvio Berlusconi, or Aleksander 
Kwasniewski do not still share a deep sense of the importance of 
retaining transatlantic solidarity in the face of the new threats of 
terrorism and weapons of mass destruction. However, in each of these 
countries, the leader's political room for maneuver has been severely 
circumscribed. Most important has been the way that, despite the rapid 
military victory in Iraq, European public support for the decision to 
go to war and for U.S. leadership in general has now dropped off again 
precipitously, influenced not just by the failure to find WMD, but also 
to demonstrate rapid progress in Iraq's political and economic 
reconstruction. Al Qaeda's apparent ability to operate successfully in 
Western Europe, despite the huge investment of resources in Iraq, will 
harden this view.
    The March 16, 2004 report from the Pew Global Attitudes Project 
paints this picture clearly, comparing polling figures prior to the 
war, immediately after the war, and last month. Perhaps most striking 
in terms of this committee's interests are two trends. First, a fall in 
European public confidence in the sincerity of U.S. motives for 
pursuing the war on international terrorism. In France and Germany, two 
thirds of respondents now believe the motives are not sincere, and even 
in Britain 41% do not trust U.S. motives. Second, is the growing number 
of Europeans who believe they should chart a more independent foreign 
policy from the United States. As expected, French respondents favored 
a more independent European role by a margin of 75% to 21%. More 
surprisingly, German and British respondents also favored a more 
independent European role by margins of 63% to 36% and by 56% to 40% 
respectively.
    So, in the aftermath of what appears to be the first major Al Qaeda 
terrorist attack in the European Union, a swing toward a more united 
Europe, and a deepening skepticism in Europe of U.S. motives and 
leadership in the war on global terrorism, what are the prospects for 
transatlantic relations in the coming year? Are relations destined to 
get worse, with unpredictable consequences for cooperation on the war 
on terror, or will the tentative efforts to overcome these differences, 
which had been visible earlier this year, take root?

                 COMMON THREAT, BUT DIFFERENT RESPONSES

    Before trying to answer these questions, there are two further 
issues to consider. The first is the apparent coming together of U.S. 
and European perceptions of the nature of the threat that they face. 
And the second is the continuing dichotomy between U.S. and European 
strategic approaches to deal with this threat.
    On the first of these points, it is remarkable to note how closely 
the new European Security Strategy (ESS), that EU leaders developed 
last year and approved in December 2003, resembles the administration's 
2002 National Security Strategy in terms of conceptualizing the changed 
nature of the threat to national security. The European paper 
specifically highlights international terrorism, WMD proliferation, 
``state failure,'' and organized crime as the central security concerns 
for Europe in the future. It also highlights, as has the U.S. 
administration, that ``the most frightening scenario is the one in 
which terrorist groups acquire weapons of mass destruction.'' The paper 
concludes that the threats to Europe of the 21st century are 
``dynamic'' and bear little resemblance to the 20th century European 
preoccupation with invasion.
    It would be easy to surmise that the language contained in the ESS 
represents an effort to mimic the United States linguistically, but 
without true political conviction. The attacks of 3/11 in Madrid will 
surely lay this view to rest. Europeans are well aware that their 
geographic proximity to the Middle East, large Muslim populations, 
porous borders, and uncoordinated national law enforcement agencies 
make it possible for Islamic extremist groups to operate in their midst 
with relative ease. Although intelligence agencies have penetrated 
national terrorist groups such as ETA and the IRA, the activities of 
loosely knit Islamic extremist groups pose new and unfamiliar 
challenges. Spain is a case in point.
    Nor is this threat perceived as being limited to the countries that 
have supported the United States in Iraq. Most EU members have been 
active and willing participants in the U.S.-led war against the Taliban 
and Al Qaeda in Afghanistan. Furthermore, European nations offer other 
sources of ire to Islamic extremist groups--the French government's 
decision to ban wearing of the veil in public schools being just the 
latest example.
    Following the attacks of 3/11, European nations find themselves 
explicitly, not just theoretically in the new security environment that 
U.S. leaders entered two and half years earlier. But agreeing on the 
threat does not mean that there is transatlantic agreement on the best 
way to confront it. As closely as Europeans might agree with U.S. 
perceptions of the nature of the threat, they tend to differ in their 
prescriptions.
    At heart, Europeans start from the premise that, in a war against 
terrorism, the effectiveness of military power is always limited and 
often counterproductive. Terrorism reflects a failure of sovereign 
governments and is a manifestation of societal, cultural, and religious 
fault lines. It is rarely, if ever, a battle of good versus evil or 
freedom versus tyranny. Whatever the merits of soft power (diplomacy, 
financial and other assistance) versus hard power (military suasion) in 
dealing with inter-state rivalries, all European governments perceive 
instinctively as well as from hard-earned experience that military 
actions alone cannot defeat terrorism. From the European perspective, 
the satisfaction and achievements of military action against terrorists 
are always short-lived unless governments simultaneously work to starve 
the roots of the terrorist cause. This explains the majority of 
European leaders' deep frustration with the U.S. decision to follow up 
the war against Afghanistan immediately with a war to overthrow Saddam 
Hussein.
    Central also to European thinking is the belief that a war against 
terrorism is a battle for legitimacy and not just for victory. 
Americans start from the view that their actions flow from a sense of 
what is right and wrong and that they are, therefore, intrinsically 
legitimate. Europeans are more cynical. Government action requires the 
legitimacy of international law and multilateral rules. In the 
international arena, such legitimacy can flow only from the United 
Nations, as imperfect an organization as it might be. Hence, also, 
Europe's general preference for an explicitly multilateral framework 
within which to pursue national actions to combat international 
terrorism.
    Overcoming such fundamental differences in strategic outlook will 
be difficult, however much Europeans and Americans perceive a common 
threat to their security from international terrorism. Nevertheless, 
governments on both sides of the Atlantic must make a supreme effort 
not to allow the attacks of 3/11 to hand the terrorists a second 
victory by leading to a further fracturing of the transatlantic 
partnership. The stakes could not be greater. The United States, 
Europe, and key allies have built together a transatlantic community of 
democratic values, economic interests, prosperity, and individual 
freedoms that are spreading to the rest of the world. This growing 
community of modern, open, interconnected societies is especially 
vulnerable, however, to determined terrorist attack.

                           ONE STEP AT A TIME

    Mr. Chairman, following the attacks in Madrid, U.S. and European 
officials face a series of difficult near-term decisions if they are to 
confront the threat of international terrorism together and not allow 
the war against terror to become a source of division rather than 
common action. Each decision must be tackled individually, one step at 
a time.
    First, neither the United States nor Europe can afford to lose 
Iraq. The risks to European countries, which are on the door step of 
the Middle East, have growing domestic Muslim populations, and are 
heavily dependent on Gulf energy imports, are as great as they are for 
the United States. Spanish withdrawal of all its 1,300 troops stationed 
in Iraq is not foreordained. Prime Minister Zapatero has repeatedly 
stated his intention to remove Spanish troops on June 30, providing 
that there is no new UN mandate that would authorize their presence. 
His harsh language on this issue is driven in part by the need to 
demonstrate to people at home and abroad that his views on Iraq are 
driven by conviction and not by fear of terrorism. With the hand-over 
of political sovereignty to Iraqis on July 1, every effort must be made 
in coming months to find a solution at the UN that meets Spain's 
requirement, but does not compromise the operational effectiveness of 
coalition forces. A decision by the Spanish government to keep some or 
all of its troops in Iraq would be of huge symbolic value and would 
deliver a serious blow to the terrorists who carried out the outrages 
in Madrid.
    Second, U.S., European forces, and their coalition partners must 
continue to secure Afghanistan's transition away from lawlessness and 
economic despair. NATO support for the gradual expansion of the role of 
Provincial Reconstruction Teams outside Kabul will be central to this 
process and to the credibility of the U.S. and European intention not 
only to defeat Al Qaeda and the Taliban militarily, but also to prevent 
their return.
    Third, as many other commentators have noted, the United States and 
Europe must show a united front in their plans for long-term political 
and economic reform across North Africa and the Middle East. For such 
an initiative to be both credible and sustainable in the region, 
however, U.S. and European governments must be insistently and actively 
engaged in helping the Israeli and Palestinian peoples find a way out 
of their cycle of violence and toward a viable settlement.
    Each of these steps will take time to bear fruit. In the interim, 
the United States and Europe can take more direct steps to confront the 
threat of international terrorism by closely integrating the domestic 
policies, procedures, technological standards, and organizations that 
they are putting in place to combat international terrorism in the wake 
of recent attacks and threats. In this context, the summit of EU heads 
of state on March 26 represented an important milestone in European 
commitment to coordinating their anti-terrorism initiatives. However, 
the summit declaration also highlighted how slowly EU governments are 
implementing the steps that they had identified two years earlier in 
the wake of the 9/11 attacks. The need for parallel transatlantic 
coordination could serve as a useful catalyst for European efforts, 
while making the transatlantic space a less attractive one for 
terrorist operatives.
    U.S. and European leaders were hugely successful in building an 
integrated military structure to confront the danger of Soviet military 
aggression during the cold war. At their upcoming EU and NATO summits 
this summer, U.S. and European leaders should consider creating new 
standing institutional arrangements that would bring together officials 
covering the fields of home affairs, justice, law enforcement, 
intelligence, and emergency response. These groups are key components 
in the war on international terror. Only once they start working 
together effectively will it be possible to roll back the threat of 
international terrorism.
    It is worth noting that the growing transatlantic gap in military 
capabilities and spending that has so often been cited as a structural 
impediment to future transatlantic security cooperation need not be a 
central obstacle to transatlantic cooperation in the war on terrorism. 
Organizational coordination, political will, and bureaucratic 
flexibility will be as important as financial resources in this war, 
where the deliberately low-tech approach of the terrorists often 
bypasses the sophisticated defense systems we have put in place.

                               CONCLUSION

    The attacks in Madrid heralded a new phase in the emerging post-
cold war security environment. For their part, Europeans suddenly find 
themselves, once again, on the front-line of a non-traditional war. 
This is not a cold war of titanic, superpower proportions, as they 
experienced from 1948-1990. Nor is it a traditional war that threatens 
territorial conquest and identifiable enemies. In this new struggle the 
United States and Europe once again face a common enemy. But, as during 
the cold war, we see alternative and sometimes competing potential 
strategies to confront the threat.
    Admittedly, Americans and Europeans entered the war against 
terrorism through different gateways--the United States through the 
exceptional events of September 11, 2001 and Europeans through decade-
long struggles against domestic terrorist groups. After the events of 
March 11, 2004, however, we can no longer say that we confront 
different threats. The threat is common and urgent, and we urgently 
need to build common responses.

    Senator Allen. Thank you so much, Dr. Niblett, for your 
insight and suggestions. Now we'll hear from Dr. Philip Gordon.

STATEMENT OF DR. PHILIP H. GORDON, SENIOR FELLOW AND DIRECTOR, 
     CENTER ON THE UNITED STATES AND EUROPE, THE BROOKINGS 
                          INSTITUTION

    Dr. Gordon. Thank you, Mr. Chairman. Let me thank you and 
Senator Biden for holding this hearing and for your own 
thoughtful opening statements.
    I submitted a written statement and thus I'd like to just 
follow your suggestion to summarize some remarks, focusing 
particularly on what I think we need to do.
    I think these hearings are particularly important and 
timely because of the risk of misunderstanding about what 
happened in Madrid on March 14 and what that means for the war 
on terrorism and cooperation with Europeans. I think there's a 
risk of people reaching the conclusion that the Spanish people 
have turned to appeasement because of the result of the 
election, which is a charge we've heard often in this country 
over the past week or so. It is a misplaced conclusion and 
possibly counterproductive, and to echo what some others have 
said, I think that if we end up depicting it that way and 
reaching that wrong conclusion and the wrong policies from 
that, we can end up actually deepening the split between the 
United States and Europe which is precisely what the terrorists 
wanted.
    It is understandable why a lot of Americans reached that 
conclusion. With the anger and disappointment of many Americans 
about the result in Spain, one can understand it was a setback 
from our point of view, particularly, I think, from the 
administration's point of view.
    Losing a key ally in Europe in Prime Minister Aznar, having 
a new Prime Minister come along and explicitly distance himself 
from the President and say he's going to pull troops out of 
Iraq, undermining the sense of coalition, I think it could also 
be read, rightly or wrongly, as the notion that political 
leaders in Europe pay a price for close association with the 
United States. Worst of all, on top of all of that, it gives 
the message to terrorists that whether it's true or not that 
the Spanish people wanted to appease, there's a real risk that 
the terrorists will read it that way, which would only 
encourage them to undertake other such attacks in places like 
Rome or Warsaw or London, in other countries where leaders have 
been close to us.
    So, one understands clearly why a lot of people read it 
that way, but I think you have to look more closely at the 
election to understand really what happened. As Bob said, we 
don't know for sure what happened, but just a couple of points.
    One is, I agree with Robin Niblett. It's hard to avoid the 
conclusion that the terrorist attacks influenced the outcome. 
The Socialists were behind by at least 4 points in the last 
polls before the election and then the only intervening factor 
in the meantime are the terrorist attacks and then there's a 
switch of up to 10 points in terms of the final vote, so 
clearly that had an effect.
    But the things I think that need to be kept in mind when 
thinking about that are two essential ones. First, as Senator 
Biden pointed out and others have said, Iraq was no doubt a 
part of the turnaround in the vote. A lot of people said to the 
press, ``I was mad at Aznar for not supporting Iraq and that's 
why I voted.'' The mechanism, by the way, seemed to be more in 
terms of voter turnout, which went up by 20 percent vis-a-vis 
the previous election than flip-flops from supporters of the 
Popular Party to the other.
    So Iraq was a factor. But I think an equally important 
factor, and people said this as well, was the anger at the 
government for the way that they handled the attacks and what 
was really a premature and categorical conclusion that it was 
ETA, the Basque separatists, that was responsible. They stuck 
to that conclusion and they did everything they could to 
persuade the press and the international community and the 
United Nations Security Council that that was the case before 
the evidence was in. That really did lead to a backlash.
    Again, we don't have the exit polls, but we have opinion 
polls saying that 67 percent of the Spanish people believe that 
the government manipulated information during the crisis, which 
led to, anger and a backlash against the government. So, that's 
one important factor. It wasn't only the policies of the 
government that they were turning away from. It was the feeling 
that they were misled.
    Second, again as has been pointed out but this is 
important, the Spanish never accepted the notion that Iraq was 
part of the war on terrorism and therefore it's a little bit 
difficult to conclude that, even to the degree that Iraq 
influenced their vote, that they were walking away from the war 
on terrorism. They said all along that they didn't accept that 
Iraq was a part of the war on terrorism.
    There were other hearings in Washington last week that 
raised this issue in an important way and there's a real debate 
going on. The administration says that Iraq is the central 
front in the war on terrorism. Critics say that attacking Iraq 
undermined the war on terrorism. Frankly, I don't know what the 
answer to that question is. We probably won't know for a long 
time, and it will depend obviously on how Iraq comes out.
    There's a serious debate to be had, but what is certain is 
that the Spanish and the Europeans in general never accepted 
that it was the same thing, and therefore I don't think we 
should allow ourselves to then say that they're walking away 
from the war on terrorism because they said again that they 
didn't support the invasion of Iraq which they hadn't supported 
in the first place.
    Obviously, even if you understand all of these factors that 
influenced the election and you conclude, as I have, that it 
wasn't appeasement of terrorism, it was still a setback, as I 
said at the beginning, for the United States and a setback for 
our desire to sustain international support in Iraq which, as 
we have said on this panel, is particularly important.
    What policy then flows from this? Let me throw out a couple 
of ideas in conclusion on what this means, if we understand the 
election that way.
    First, I think we should be very careful to avoid 
denouncing the Spanish people as appeasers and characterizing 
the Socialist election as a victory for al-Qaeda. The Spanish 
have now lost more than 1,000 lives to terrorism in the past 
couple of decades. They know what it is. They've actually stood 
up to it very steadfastly.
    It's true that the new government doesn't support U.S. 
policy in Iraq, but it does continue to cooperate, as we heard 
earlier, with the United States on terrorism in Afghanistan. 
Remember, the new government came in distancing itself from 
Iraq, but it is also said that it is not only the rhetoric that 
it's going to fight the war on terrorism but they're going to 
double their commitment to Afghanistan which, by the way, was 
also cited by the alleged terrorists in the attack. So, they 
are saying quite clearly they're still with us on at least that 
part of the war on terrorism.
    Second, I think that the Bush administration should 
immediately reach out to this new Spanish Government and try to 
work with it. Bob Kagan used the phrase ``get into the 
conversation.'' Absolutely. We need to get into the 
conversation. I even think that the President should consider 
himself a trip to Madrid. He made one early in his tenure, and 
he should make one now.
    You remember how upset a lot of Americans were when we felt 
that Europeans didn't fully appreciate what happened here on 
our soil. It just seemed like they were so far away and they 
understood that it was tragic, but they didn't feel it like we 
did and that created a lot of resentment here.
    We should avoid making the same mistake. If you go to 
Madrid or you talk to people who have been there, it's 
different when it's in a place that you're familiar with, and 
we need to let them know. Absolutely. It was important that 
Secretary Powell went to the funerals and the ceremonies, but 
we need to do more than that.
    It's essential that the Spanish know that we know that they 
were as shocked and affected by their 3/11 as we were by our 9/
11 when their simple morning rush hour commute was blown up in 
their faces.
    Third, I think we need to, as part of this connection with 
the new Spanish Government, look seriously at what type of U.N. 
role in Iraq might make it possible for them to stay. I mean, 
what got the news is that the new Prime Minister came in and 
said I want to get out of Iraq and I would only stay if the 
U.N. takes control and if the occupiers give up political 
control. That's pretty harsh, but there does seem to be some 
flexibility, potential flexibility in the Spanish position, and 
we should absolutely explore it.
    I wouldn't rule out the possibility that a U.N. mandate for 
a force in Iraq and transfer of sovereignty to a new government 
would be enough to give the Spanish Prime Minister the 
political cover he would need in order to stay in Iraq, and I 
think that would be important. I think the Spanish know and 
they should know, and other Europeans are starting to reach the 
conclusion, that a failure in Iraq would be as much a failure 
for their interests as for us.
    We should also, in the context of the same discussion with 
this government and our European allies, look into a NATO role, 
which I think also could perhaps help the Spanish stay, and 
here, I'm a little bit more optimistic about the overall 
picture than Bob Kagan in the sense that I think the European 
governments are looking at this and after June 30, if we do 
transfer sovereignty to a new government in Iraq and the U.N. 
plays more of a role in organizing elections, that not only 
Spain but even France and Germany will start thinking about 
doing more in Iraq than they have at present and that could be 
debt relief, it could be training Iraqi security officials, it 
could be reconstruction aid, and it could be support for a NATO 
role, and these are all things I think we need to do in order 
to get them on board because I think having them on board is 
essential.
    Just two brief final suggestions. One is, we've already 
brought it up, the question of U.S.-European counterterrorism 
cooperation, specifically, and encouragement of European 
internal borders has been effective.
    Ironically, terrorists actually circulate more freely 
within Europe than the people trying to catch them in terms of 
exchange of information, and we should be able to deal with 
this. We have enough trouble coordinating our own agencies on 
this issue. They have to coordinate all their agencies among 
now, as of next week, 25 different countries with people who 
speak different languages, both literally and figuratively.
    So, it's really hard, but it's also really essential, and 
we can play a role at a minimum in trying to empower the new 
organizations that they have set up and are setting up. We have 
so much to offer in this regard. Instead of only relying on our 
national channels, I think we should do what we can do to try 
to empower their EU level channels. We know it's going to be 
hard, but we've got to get them to do it. Someone has to bash 
heads together and maybe our voice will not always be listened 
to in this debate, but it's so important and we have a lot to 
offer, I think we should lead them in that direction.
    Last, I would just say that I agree with Bob Kagan about 
the public diplomacy aside, this is also about hearts and minds 
and persuading people to be on our side and to cut the budget 
for that and sort of lead the conversation as if, well, we know 
what we want to do and if you don't agree, that's just too bad 
for you guys, we're going to go about it the American way is 
really undermining our own project. We should actually be doing 
more and not less.
    Finally, I think that the upcoming summits, we all know G8, 
U.S.-EU, and NATO, provide a real opportunity to begin this 
dialog and to pursue some of the specific things that I 
mentioned earlier.
    Thank you very much.
    [The prepared statement of Dr. Gordon follows:]

               Prepared Statement of Dr. Philip H. Gordon

    Mr. Chairman, Senator Biden, Members of the Committee, thank you 
for the opportunity to address the critical issue of U.S.-European 
anti-terrorism cooperation in the wake of the Madrid terrorist attacks 
and the Spanish elections. I believe this discussion is all the more 
timely and important because of the significant potential for 
misunderstanding of what happened in the March 14 election and what it 
means for U.S.-European cooperation in the war on terrorism and in 
Iraq. In particular, I believe that the conclusion that the Spanish 
people have abandoned the war on terrorism and opted instead for 
appeasement--a charge heard from a number of American commentators over 
the past two weeks--is both misplaced and counterproductive. The wrong 
policy reactions in both Washington and Madrid could end up giving the 
terrorists the result they wanted by undermining transatlantic 
cooperation not only in the war on terrorism but across a range of 
important issues.
    The anger and disappointment of many Americans, and in particular 
supporters of the Bush administration, is understandable. With the 
defeat of Prime Minister Jose Maria Aznar's Popular Party, the 
administration has seen a close, reliable ally in a key European 
country being replaced by an inexperienced Socialist who is skeptical 
of recent U.S. policies and who has been highly critical of President 
Bush. New Prime Minister Jose Luis Rodriguez Zapatero's pledge to 
withdraw Spanish troops from Iraq unless the UN takes over, moreover, 
is a setback to the effort to build and maintain an international 
coalition in Iraq. Spain has been one of America's most steadfast 
allies in Iraq and one of the top foreign troop contributors with 1,300 
troops. Its departure could encourage other allies to leave, increasing 
military burdens on the United States and undermining the mission's 
legitimacy. Zapatero's election could also be seen as bad news for the 
United States in that it suggests that leaders who back American 
policies without the support of their electorate--as Aznar did on 
Iraq--risk paying the price for those policies at the ballot box. 
Finally, and by far most seriously, it is hard to avoid the conclusion 
that the outcome of the Spanish election will only encourage the 
terrorists to strike again, perhaps once again in the capital city of a 
country that has steadfastly supported the United States on Iraq. 
Regardless of whether or not Spanish voters were in fact distancing 
themselves from the war on terrorism, there is a good chance that the 
terrorists who planted the bombs just three days before the election 
will conclude that they were, and that is very bad news. It is thus not 
surprising that some Americans have accused Spanish voters of having 
given in to terrorism with their vote.
    A closer look at what happened in Spain on March 14, however, 
reveals a more complicated situation. There can be little doubt that 
the March 11 attacks influenced the outcome of the election. According 
to the polls published on March 7, the last day polls could be 
published under Spanish law, the Socialists trailed Aznar's Popular 
Party by four percentage points (42%-38%). While the gap between the 
two parties was narrowing, it seems highly unlikely that the Socialists 
would have managed to win a 44%-38% victory just a week later had it 
not been for the attacks. With emotions riding high, voter turnout rose 
to 77% of Spain's 35 million eligible voters (compared with just 55% in 
the elections four years ago), and most of the new voters, including 2 
million first-time voters, appear to have voted for the Socialists.
    Opposition to the Iraq war, many of these voters made clear, played 
a role in this swing vote. But another key reason for the last-minute 
turnaround was not voters' desire to distance themselves from Aznar's 
policies but rather their anger at the government's handling of the 
terrorist attacks. The government's premature, categorical conclusion 
that Basque separatists were behind the atrocities, and its stubborn 
refusal to back away from that conclusion even as information came in 
suggesting likely al Qaeda involvement, left the government looking 
manipulative and disingenuous in the eyes of Spanish voters. No less 
than 67% of the Spanish people, according to an opinion poll published 
late last week, believe that the government manipulated information 
during the crisis.
    The Aznar government appears to have concluded that an ETA attack 
would be politically helpful by highlighting its tough approach on 
Basque terrorism, whereas an al Qaeda attack might hurt the government 
by underlining its unpopular role in Iraq and its relationship with the 
United States. Thus, within hours of the attacks, Interior Minister 
Angel Acebes had declared that ``the government has no doubt that ETA 
was responsible for the attacks.'' Later that afternoon, Foreign 
Minister Ma Palacio sent a telegram to Spanish ambassadors confirming 
this statement and encouraging them to ``use every occasion to confirm 
the authorship of ETA'' and Spain began lobbying the UN Security 
Council for a resolution explicitly blaming ETA for the attacks. That 
evening, Aznar twice called major Spanish newspapers to insist that ETA 
was responsible for the attacks and was even denouncing speculation 
that al Qaeda might be involved as ``an attempt by malicious people to 
distort information.'' In the first hours after the attack it was 
perhaps reasonable to suspect ETA, given knowledge of that group's 
previous plans to place bombs on Spanish trains. But the attempts to 
rule out other options--even though the attacks bore many hallmarks of 
an al Qaeda operation and even after a van was found with a tape 
recording of verses from the Koran in Arabic and bomb-making 
materials--was seen as an attempt to deceive Spanish voters for 
political reasons.
    Had Aznar right away characterized the mass killing in Madrid as an 
attack on democracy itself, perhaps not as many voters would have 
allowed themselves to hand the terrorists the political change they 
apparently wanted. Instead, the government appeared to try to use the 
attacks to strengthen its political hand, and outraged voters made it 
pay a price. The government, after all, already had a reputation for 
political ``spin'' after its handling of other high-profile events in 
Spain, including the oil spill from the tanker Prestige off the Spanish 
coast in 2002, an airplane crash that killed 62 Spanish soldiers 
returning from Afghanistan in 2003, and the issue of weapons of mass 
destruction in Iraq. Whether or not the government really did seek to 
influence the vote through its handling of the attacks is less 
important than the strong perception that it did. The government 
appears to have paid more of a price for misleading the public than for 
its policy on Iraq.
    Finally, and most important, even to the degree that the vote 
against Aznar's Popular Party was a vote against the Iraq war, it was 
not, in Spanish eyes, a vote against the war on terrorism. The fact is 
that while the Bush administration has defined Iraq as the central 
front in the war on terrorism, the Spanish--and most Europeans--never 
accepted that argument. More than 80% of the Spanish people were 
against the war in Iraq and many people believed that the invasion 
could actually be more a spur to Islamic terrorism than a strike 
against it. As other hearings in Washington last week demonstrated, 
there is a serious debate to be had about the link between the Iraq war 
and the war on terrorism, and at this point any honest assessment must 
acknowledge that it is too soon to know for certain. But even to the 
degree that the Spanish vote on March 14 was a vote against the 
invasion of Iraq, it cannot be said that it was a vote against the war 
on terrorism, since the vast majority of the Spanish never equated the 
two. Incoming Prime Minister Zapatero's pledge to make fighting 
terrorism his top priority and his decision to double the Spanish 
contingent in Afghanistan underscore the distinction that he and most 
of the Spanish make about the two issues. Even a brief glance at the 
implacable stand that Spanish governments, including Socialist 
governments, have historically taken against ETA in particular and 
terrorism in general should convince us that appeasement is not their 
natural inclination.
    Understanding these factors does not change the fact that the 
terrorist attacks in Madrid and the outcome of the Spanish elections 
were setbacks for the United States, particularly in its desire to 
sustain international support in Iraq. But it should help us avoid 
misinterpreting the electoral outcome, and therefore to avoid making 
policies based on false assumptions. In particular, several general 
policy guidelines would appear to result from the analysis of the 
Spanish election presented here:

  <bullet> The United States should avoid denouncing the Spanish people 
        as ``appeasers'' and characterizing the Socialists' election as 
        a ``victory'' for al Qaeda. Spain has lost over 1,000 lives to 
        terrorism over the past 30 years and has stood up to it 
        steadfastly. The new government does not support U.S. policy in 
        Iraq, but it continues to cooperate well with the United States 
        on judicial and intelligence matters, is willing to enhance 
        police and anti-terrorist cooperation within Europe, and it is 
        committed to playing an important role in Afghanistan. American 
        disappointment with the result of the election and some of the 
        new government's policies and statements is understandable, but 
        overreaction could backfire and produce the very split in the 
        global anti-terrorist coalition that the terrorists apparently 
        sought.

  <bullet> The Bush administration should immediately reach out to the 
        new Spanish government to make clear that the United States 
        still considers Spain a vital and loyal ally whose cooperation 
        it needs in our common interest. In doing so, President Bush 
        should himself consider a trip to Madrid to pay tribute to the 
        victims of terrorism in the same way that countless foreign 
        leaders have visited ``ground zero'' in New York. Americans 
        rightly felt that Europeans did not fully appreciate the shock 
        of such massive terror attacks on our soil. We must not make 
        the same mistake; it is important that Europeans understand 
        that we appreciate how painful their losses were when our 
        common enemies killed so many of their citizens during a 
        morning rush-hour commute. The Spanish should not be left to 
        believe that the United States only stood by them when they had 
        a conservative and compliant government. One of the clearest 
        messages for the United States in the Spanish election is that 
        it does not suffice to win the support of governments alone; in 
        democracies the United States needs to win the hearts and minds 
        of the people as well.

  <bullet> The administration should explore the type of UN role in 
        Iraq that would be necessary for the new government to maintain 
        Spanish troops in Iraq. Zapatero has said that Spanish troops 
        would only stay if the UN ``takes control'' and the ``occupiers 
        give up political control'' but there may be some potential 
        flexibility in the Spanish position. It is not impossible that 
        a new UN mandate for the security force, along with a key UN 
        role in making arrangements for the Iraqi constitution and 
        organizing elections, could give Zapatero the political cover 
        he would need to remain part of the Iraq coalition. The Spanish 
        should know, and be reminded, that however they felt about the 
        war in the first place, a Western failure there would be 
        catastrophic for Europeans and Americans alike. Thus the United 
        States should do what it reasonably can to make it possible for 
        Spain to stay in Iraq, not only because we need their 1,300 
        troops, but because broader European support and legitimacy 
        will be a crucial factor in our prospect for success. If our 
        efforts to persuade the Spanish to remain part of the coalition 
        should fail, a possible alternative might be to get them to 
        adopt a force-protection mission for an eventual UN presence in 
        Iraq. That would not be as good as a full security role, but it 
        would be a useful mission that Spanish politics might permit.

  <bullet> The United States should also encourage NATO to play a 
        greater role in providing security in Iraq, which could also 
        make it easier for the Spanish to remain involved. Indeed, if 
        the United States effectively transfers sovereignty to a new 
        Iraqi government on June 30, and if that government asks NATO 
        and the UN to get involved, it is possible that not only Spain 
        but even potentially France and Germany could begin to play a 
        greater role in Iraq. The latter two governments have already 
        suggested that under these conditions they would consider 
        extending more Iraqi debt relief, enhanced training of Iraqi 
        gendarmes and security forces, reconstruction aid, and, in the 
        case of France, possibly even troops at some point. These 
        opportunities should be explored, because just as transatlantic 
        cooperation only worked in the Balkans when the NATO allies had 
        troops on the ground, we will only really put our divisions 
        with the Europeans behind us once we are all working together 
        in Iraq.

  <bullet> The United States should not only encourage but take active 
        steps to promote counter-terrorist cooperation within Europe. 
        Ironically, despite major transatlantic differences over issues 
        like Iraq, transatlantic cooperation on terrorism has been 
        reasonably good, indeed better than cooperation among Europeans 
        themselves. Internal European borders have effectively been 
        eliminated, but there has been little integration of law 
        enforcement or intelligence capabilities. As a result, it is 
        easier for terrorists to operate and circulate across European 
        borders than it is for the police, intelligence officers or 
        prosecutors who are trying to stop them. While we struggle to 
        improve coordination between the FBI, the CIA, and Homeland 
        Security, Europeans are attempting to coordinate 15 (soon 25) 
        different domestic and foreign intelligence services--who often 
        speak different languages (both literally and figuratively).
      Although intra-European coordination is essentially an internal 
        European issue, the United States does have both a stake in its 
        outcome and a role to play in improving it. U.S. intelligence-
        gathering services, for example, are so advanced that they 
        effectively empower their partners in Europe simply by working 
        with them. The United States should use this leverage to 
        encourage greater cooperation and coordination at the European 
        level by taking seriously and working with the nascent EU-level 
        organizations that have been established, including Europol, 
        Eurojust and the newly appointed (post-Madrid) Counter-
        Terrorism Coordinator Gijs de Vries. Because these new 
        organizations lack capacity, the temptation is to ignore them 
        in favor of traditional national channels, which currently 
        offer more effective partnerships. While bilateral cooperation 
        must continue, however, we must also recognize a long-term 
        interest in getting Europeans to use their EU-level capacities 
        and coordinate better among themselves. As both 9/11 and 3/11 
        showed, the terrorists are adept at using different European 
        locations to make their preparations and to hide from 
        authorities. Without better intra-European cooperation, we are 
        fighting them with one hand tied behind our backs.

  <bullet> Finally, the United States should take advantage of a series 
        of upcoming opportunities with the Europeans--the G-8, NATO, 
        and U.S.-EU summits and the D-Day anniversary--to reestablish a 
        sense of common purpose in the war on terrorism and beyond. 
        Whatever our legitimate differences over Iraq, the fact is that 
        the Madrid attacks underscore that we are all vulnerable to the 
        same threat, and that neither Europeans nor Americans will be 
        safe until that threat is defeated. In particular, the upcoming 
        summits should be used to begin the long-term process of 
        fostering the sort of political change and economic development 
        in the Middle East without which the problem of Islamic 
        terrorism will never go away.

    Senator Allen. Thank you very much, Dr. Gordon, for your 
comments and insights. Now we'll hear from Mr. Dobbins.

   STATEMENT OF HON. JAMES DOBBINS, DIRECTOR, INTERNATIONAL 
      SECURITY AND DEFENSE POLICY CENTER, RAND CORPORATION

    Mr. Dobbins. Mr. Chairman, thank you very much for inviting 
me and my apologies for arriving somewhat late.
    Clearly, the recent attacks in Spain have exacerbated 
transatlantic differences over Iraq and the war on terrorism, 
but before expanding on those differences, it's worth 
emphasizing where we agree.
    There are no apparent differences between the United States 
and Europe over the nature of the terrorist threat or the need 
for closer cooperation. There are no apparent differences 
between the United States and Europe over the need to help 
construct a democratic, prosperous and peaceful Iraq nor do 
there appear to be any differences about how to do so from here 
on out.
    Where there is a disagreement, a fairly fundamental 
disagreement is over the role of war in the war on terrorism 
and specifically over the role of the war in Iraq in the war on 
terrorism.
    As Senator Biden pointed out, the attacks in Madrid didn't 
change any Spanish minds about the wisdom of the attack on 
Iraq. They did raise the prominence of the issue and the 
priority of the issue in the minds of the Spanish voters as 
they went to the polls.
    But most Spaniards and indeed most Europeans had by then 
been persuaded that the invasion of Iraq had contributed 
negatively to the war on terror by exposing American and allied 
military and civil personnel to terrorist attacks by 
radicalizing public opinion throughout the Muslim world, by 
increasing recruitment to extremist organizations and by 
diverting resources from other tasks, including the 
stabilization of Afghanistan.
    Following the recent attacks in Spain, some Europeans may 
now believe that their support for the intervention or their 
government's support for the intervention in Iraq has also 
increased the likelihood of terrorist attacks in their home 
countries.
    If some European governments and most European people 
differ with the United States over the wisdom of invading Iraq, 
there are no discernible differences about where to go from 
here as regards Iraq. Whatever its original predilections, the 
U.S. administration seems in recent months to have embraced the 
approach to Iraqi reconstruction once advocated by its harshest 
European and indeed domestic critics.
    The United States is now seeking to expand the U.N. and 
NATO roles in post-occupation Iraq and to return sovereign 
power to an Iraqi government as soon as one can be formed. 
Indeed, the U.S. administration seems to envisage exactly the 
role for the United Nations in post-occupation Iraq that the 
new Spanish Government says it requires to keep Spanish troops 
there.
    Future limits on the multilateralization of the Iraq 
mission seem much more likely to result from U.N. and European 
reluctance to become more heavily involved than from any 
residual unilateralist impulses within the U.S. administration.
    There are, as noted, important differences between the 
United States and Europe over the role of war in the war on 
terrorism. Most Europeans see counterterrorism as primarily a 
law enforcement, judicial, intelligence, diplomatic and 
financial activity with only a limited role for conventional 
military force. They believe most terrorists live in and 
operate out of essentially uninvadable states.
    They're not convinced that terrorist organizations, like 
al-Qaeda, rely on state support. They do not believe that 
Saddam's regime was actively supporting terrorist activity in 
either Europe or the United States. They do not feel that 
Saddam Hussein was likely to supply WMD to terrorist 
organizations, even had he had any such weapons to supply. They 
supported the invasion of Afghanistan but not of Iraq.
    The 9/11 attacks have increased European concerns over WMD 
proliferation and the prospect of such weapons falling into 
terrorist hands. Europeans are not willing to sanction 
unilateral preemption, however, at least not in the absence of 
an eminent threat. Europeans are open to the concept of 
multilateral preemption; that is to say, common action, 
including common military action against eminent threats.
    Many Europeans, I believe, could also be brought to accept 
the need for unilateral preemptive action, but only in cases 
where the threat proved in fact to have been eminent. Grave and 
growing danger is simply not enough for the Europeans. The 
threat is going to have to be eminent to secure their active 
cooperation.
    Transatlantic differences over Iraq are, as noted, more 
retrospective than prospective at the moment. Now, the dynamics 
of the American Presidential campaign make it difficult for the 
time being to put these differences behind us on a 
transatlantic basis.
    At least for the next 6 months, the U.S. administration is 
going to feel the need to proclaim pretty much on a daily basis 
that its original decision to intervene in Iraq was a good 
idea. This will lead many Europeans to periodically restate 
their view that it was not. At this stage, however, this 
argument is predominantly a domestic one, albeit with a 
transatlantic echo.
    After November, whichever candidate is elected to the 
American Presidency, transatlantic recriminations over past 
differences are likely to further recede while the focus turns 
to next steps, in particular what next steps, what to do about 
Iraq from that point forward.
    As long as American forces remain heavily tied down in 
Iraq, the transatlantic debate over preemption as a doctrine 
with applicability to future cases will remain somewhat 
academic. Such differences are unlikely to curtail 
counterterrorism cooperation in the law enforcement, judicial, 
intelligence, diplomatic, and financial areas.
    Nevertheless, failure to agree on the role of war and the 
war on terror will complicate the ability to forge a common 
U.S.-European strategy. Certainly, it will remain impossible to 
base common action between the United States and Europe upon a 
doctrine of unilateral preemption. Continued enunciation of 
such a doctrine will make it more difficult to marshal European 
support and secure European participation in those instances 
where military action becomes the last best option.
    Whatever preemption's virtues and the guide to action, it 
is probably an option that best remains unenunciated until such 
action becomes an unavoidable necessity. In sum, preemption is 
a valid option but a poor doctrine.
    [The prepared statement of Mr. Dobbins follows:]

              Prepared Statement of Hon. James Dobbins \1\
---------------------------------------------------------------------------

    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to federal, state, or local 
legislative committees; government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
    The recent terror attacks in Spain have exacerbated transatlantic 
differences over Iraq and the war on terror.
    Before expanding on those differences, however, it is worth 
emphasizing the areas of continued agreement.
    There are no apparent differences between the U.S. and Europe over 
the nature of the terrorist threat or the need for closer cooperation, 
including transatlantic cooperation to counter it.
    There are no apparent differences between the U.S. and Europe over 
the need to help construct a democratic, prosperous and peaceful Iraq, 
nor do there appear to be any differences about how to do so from this 
time foreword.
    There are transatlantic differences over the role of Iraq in the 
war on terror, and over the role of war in the war on terror. The 
recent terrorist attacks in Spain do not seem to have changed European 
opinions on these issues so much as raised their prominence.
    Some European governments and most European people believed, even 
prior to the Spanish attacks, that the invasion of Iraq has contributed 
negatively to the war on terror by exposing American and allied 
military and civil personnel to terrorist attack, by radicalizing 
public opinion throughout much of the Moslem world, by increasing 
recruitment to extremist organizations and by diverting resources from 
other tasks, including the stabilization of Afghanistan. Following the 
recent attacks in Spain, some Europeans may now believe that the 
intervention in Iraq has also increased the likelihood of terrorist 
attacks in European states that supported that action.
    Striking at states that support terrorism has been integral to the 
Bush Administration's post 9/11 strategy. Saddam's may not have been 
the most complicit of such regime, but it was the most vulnerable. 
American action in Iraq, following so closely on its invasion of 
Afghanistan, does seem to have given pause to other states, such as 
Syria, Iran or Libya, which have shown a predilection toward terrorist 
methods in the past. Recent Iranian and Libyan concessions regarding 
their respective nuclear programs give substance to this linkage and 
support to the American Administration's claim that preemptive action 
in Iraq could have a deterrent effect elsewhere.
    This deterrent effect may be undermined, however, by the 
difficulties the United States has encountered in reconstructing both 
Iraq and Afghanistan and the failure to establish a secure environment 
in either place. In the short term, U.S. forces are so heavily 
committed to these efforts as to make major new commitments elsewhere 
unlikely. In the long term regime change as a response to state 
supported terrorism will remain a credible strategy only if the United 
States demonstrates the capacity not just to take down odious regimes, 
but to build up better ones in their place if some European governments 
and most European people differ with the U.S. Administration over the 
wisdom of invading Iraq, there are no discernible differences about 
where to go from here. Whatever its original predilections, the U.S. 
Administration seems, in recent months, to have largely embraced the 
approach to Iraqi reconstruction advocated by its harshest European 
critics. Thus the U.S. is thus now seeking to expand the UN and NATO 
roles in post-occupation Iraq, and to return sovereign power to an 
Iraqi government as quickly as one can be formed. Indeed the U.S. 
Administration appears to envisage exactly the role for the United 
Nations in post-occupation Iraq that the new Spanish government says it 
requires to keep Spanish troops there. Future limits on the 
multilaterization of Iraq's reconstruction seem more likely to result 
from UN and European reluctance to become more heavily involved than 
residual unilateralist impulses on the part of the U.S. Administration.
    There are, as noted, important differences between the U.S. and 
Europe over the role of war in the war on terrorism. Most Europeans see 
counter-terrorism as a primarily law enforcement, judicial, 
intelligence, diplomatic and financial activity, with only a limited 
role for conventional military force. They believe most terrorists live 
in and operate out of essentially uninvadeable states. They are 
unconvinced that terrorist organizations like al-Qaeda rely on state 
support. They do not believe that Saddam's regime was actively 
supporting terrorist activity against Europe or the United States. They 
do not feel that Saddam Hussein was likely to supply WMD to terrorist 
organizations, even had he any such weapons to supply. They supported 
the invasion of Afghanistan, but not Iraq.
    The 9/11 attacks have increased European concerns over WMD 
proliferation, and the prospect for diversion into terrorist hands. 
Europeans are not willing to sanction unilateral preemption, however, 
at least not in the absence of an immanent threat. Europeans are open 
to the concept of multilateral preemption, that is to say common 
action, including common military action against immanent threats. Many 
Europeans could also be brought to accept the need for unilateral 
preemptive action, but only in cases where the threat proved, in fact, 
to have been immanent.
    Transatlantic differences over Iraq are, as noted, more 
retrospective than prospective. The dynamics of the American 
Presidential campaign make it difficult, however, to put these past 
differences behind us. At least for the next 6 months the U.S. 
Administration is going to feel the need to proclaim, pretty much on a 
daily basis, that its original decision to intervene in Iraq was a good 
idea. This will lead many Europeans to periodically restate their view 
that it was not. At this stage, however, this retrospective argument is 
predominantly a domestic one, albeit with a transatlantic echo. After 
November, whichever candidate is elected to the American Presidency, 
transatlantic recriminations are likely to further fade, while the 
focus turns to future steps.
    As long as American forces remain heavily tied down in Iraq, the 
transatlantic debate over preemption as a doctrine with applicability 
to future cases will remain somewhat academic. Such differences are 
unlikely to curtail counter-terrorism cooperation in the law 
enforcement, judicial, intelligence, diplomatic and financial arenas. 
Nevertheless, failure to agree upon the role of war in the war on 
terror will complicate the ability to forge a common U.S.-European 
strategy. Certainly it will remain impossible to base common action 
between the United States and Europe upon a doctrine of unilateral 
preemption. Continued enunciation of such a doctrine will make it more 
difficult to marshal European support and secure European participation 
in those instances where military action becomes the last best option. 
Whatever preemptions virtues as a guide to action, it is probably an 
option that best remains unenunciated until such action becomes an 
unavoidable necessity.

    Senator Allen. Thank you, Mr. Dobbins, and I thank all our 
witnesses, and now we're joined, also, by Senator Dodd of 
Connecticut.
    I listened closely to all your testimony, all your wisdom, 
your advice, your insight, why the election turned out the way 
it did in Spain, it's just a question of whether or not the 
people of the various European countries agree.
    I think that leaders, intelligence people, law enforcement, 
defense, all may agree, but the question is the people. The one 
strain through all of this, and I was taking notes from Mr. 
Kagan, Dr. Niblett, Dr. Gordon, Mr. Dobbins, is that while the 
European people were not convinced that hitting Saddam, even 
though Iraq was a terrorist state, state sponsor of terrorism, 
paying families to send children into Israel for bombing, 
somehow they don't consider that part of the war on terrorism.
    It probably doesn't do us much good to just argue endlessly 
over that whole issue one way or the other, just suffice it to 
say they don't agree with us.
    The one thing, though, from each and every one of you, one 
of the key points is we have to be successful in Iraq. Dr. 
Niblett talked about we must win in Iraq. The same with Dr. 
Gordon, as you went through all that it's not appeasement, it 
may be looked upon that way, but it's not, and it's very 
important to adduce that testimony from you all here because 
appeasement won't work, and it's good to hear that they do not 
care, that the Europeans, the Spanish don't even care to 
appease.
    Indeed, Mr. Dobbins, you also said we must win in Iraq. The 
question is the method, the method of how we're going to 
succeed in Iraq, and it is good to hear that regardless of how 
we got into Iraq, whether they agreed with this tactic, this 
strategy, this method, if this should have been a battlefront 
the fact is we must win. When you argue the military action, 
though, everyone did agree with military action in Afghanistan, 
and it is the model. Even when I've talked to the French 
ministers or ambassadors, they looked at the Afghanistan effort 
as the model.
    Now, what's going to happen, on July 1 of this year in 
Iraq. One way or the other, something's going to have to happen 
on July 1. Maybe nothing happens, but there's consequences for 
nothing happening as well.
    Now, the question is, how do we involve the United Nations 
or to a greater extent and easier transition would be to NATO. 
The seven countries coming in from the Balkans to Bulgaria 
obviously already are contributing in Iraq, and I was there on 
the White House lawn and each one of them, the President listed 
their different efforts, whether they were Lithuanians or 
whether they were from Slovenia or whether they were from 
Romania and that elicited applause.
    The point is, if we could transition this to NATO, it would 
seem to be the easiest and maybe the most effectual transition 
in assistance in Iraq.
    Now, how do you see us respecting the sovereignty clearly 
of each of the European countries, however joined together in 
NATO, all recognizing that not only is it important to be 
successful in Afghanistan but also Iraq?
    How would you all say how the United States definitely 
sticks with our principles, respecting the differences of 
opinion of our European friends and allies, how do you see us 
transitioning that into a desire and an understanding that we 
can't quit, we can't run from Iraq, but we all need to pitch in 
with NATO in assessing whatever governing council there may be 
in Iraq after July 1?
    Mr. Kagan, I'll start with you.
    Mr. Kagan. Well, I totally agree with your goal, Mr. 
Chairman. I have to say, however, I think it's almost 
inconceivable that you could have NATO coming in in that 
timeframe because I think the prior necessity for many of the 
countries in NATO and not just Spain but certainly Spain would 
be a U.N. mandate.
    For better or worse, you've got to cross the U.N. threshold 
before you can get to the NATO threshold, and so I would say 
that in the near term, over the next 2 months, the focus is 
going to have to be on finding a new U.N. mandate that is 
acceptable, in the first instance, to France. I mean, Spain 
doesn't have anything to say about how the U.N. mandate is 
negotiated.
    The assumption is that Spain would slipstream, but one 
could hope that if it's good enough for France, then the 
Spaniards, who have now decided that they are France's best 
friends, would come in behind them, but I'm not optimistic, 
quite honestly, that we can work out a deal in the new post-
Madrid environment with France that might have been a little 
bit easier to work out in the pre-Madrid environment.
    Senator Allen. Dr. Niblett.
    Dr. Niblett. The summits obviously will be too late in the 
sense that we have to have agreement by the summits rather than 
at the summits, but it is a worthy goal to shoot for that.
    I would note the editorial in the Wall Street Journal 
yesterday by Miguel Angel Moratinos, who's designated as being 
the new Foreign Minister, who talked about Spain not deploying 
as an occupying force in Iraq and I thought that phraseology 
was interesting because, clearly, if it is possible and the 
timing here is very difficult, but if it is possible for the 
new Iraqi sovereign government to request a military force 
there, then it starts to provide some of the cover that the 
Spanish are clearly looking for. The Spanish are participating 
in peacekeeping operations in the Balkans and Afghanistan which 
has been noted. Forty percent of the peopled polled, in one of 
the polls that was conducted recently in Spain would envisage 
Spanish troops in Iraq under a U.N. mandate.
    So, clearly, there is some potential here hopefully going 
forward.
    Senator Allen. Thank you. Dr. Gordon.
    Dr. Gordon. Three very brief points. I completely agree 
with you, that there's no point in redebating Iraq with the 
Europeans. There's so many variables now that point in a 
positive direction and a negative direction, that it's wasting 
our time to redebate that. The thing to do is look forward.
    Second point. We have a real political problem with the 
Europeans and European leaders, is that a lot of supporters of 
the Iraq war said from the start it doesn't really matter if 
they agree or if they're on board because we'll do it, we'll 
make it work, and they'll come crawling back because they won't 
have a choice afterwards.
    The problem is they know that and the last thing they want 
to do as politicians is fuel that American point of view and 
just confirm our belief that if we just do things, they'll 
eventually come crawling back, and it's very difficult for them 
politically.
    I mean, you know, your politicians think about that. 
They're supposed to go to their people and say we were against 
this, it was a bad idea, but the Americans did it anyway, so we 
better go and bail them out, which leads to the third point, 
which is, what we have to do to make it politically possible 
for them to do.
    I think we're already moving in that direction. The 
transfer of sovereignty will be key because it's a lot easier 
for them politically to do something at the request of a new 
sovereign Iraqi government, however appointed, than it is 
because the United States asks them. That will help and it's a 
strong reason, I think, to go ahead with that, even though we 
may not be ready in terms of the right sort of government in 
place.
    Second, the United Nations, it has to have more of a U.N. 
and less of a U.S. face on it, to the extent possible. Now, 
we've decided to skip a U.N. phase and go straight from 
occupation to an Iraqi government, but I'm not sure that 
there's not still an important role for an empowered U.N. 
official in that country, rather than just an empowered 
American ambassador, and I think that would make it easier for 
the Europeans, if the U.N. Security Council gives a mandate to 
the security force and empowers a senior U.N. official so that 
again the potential allies feel like they're doing this for the 
U.N. and the international community rather than just us.
    NATO, as I said in my testimony, I think that's very 
important to pursue. I think we'll eventually get there and 
that, too, could help the Europeans and the Spanish play a role 
and that will be key. If you remember the Balkans, we disputed 
this vigorously in the early 1990s and we were really at 
loggerheads, but once we had a NATO force go in and we were all 
on the ground and that NATO gave them both political cover and 
a political voice, we put the differences behind us, and I 
think that's what we need to do in this case as well.
    Senator Allen. Thank you. Mr. Dobbins.
    Mr. Dobbins. Well, I'll just speak as a cynic. It's not 
really a choice between the U.N. or NATO. The U.N.'s value-
added is on the political side, NATO's value-added is on the 
military side.
    Senator Allen. On the security side, right.
    Mr. Dobbins. Right. On the security side, and there are 
roles for both, and as Robert has suggested, it's probably 
sequential; that is, you need to define a clear U.N. role in 
order to persuade skeptical NATO countries to expand NATO's 
role.
    I do think that this is going to have to occur in an 
incremental fashion. It's not plausible that NATO would take 
over the entire military operation in Iraq in the near future. 
What is feasible, I think, is some time in the late summer or 
early fall for NATO to take over a piece of the action, either 
a sector or a function and to perform that function or that 
sector as a NATO alliance, and this can be seen as a precursor 
perhaps to a broader multinational organization as a whole 
operation at some future date, but we'll have to take this one 
step at a time.
    Senator Allen. Thank you very much. My time's expired. 
Thank you for your comments and your insight, and now I'd like 
to turn it over to Senator Biden for his questions.
    Senator Biden. Thank you very much. For those who are 
listening and the cameras are here, I wish the American public 
knew how well-respected the four of you are and how different 
you have been in your views on many other subjects up to now 
and how much agreement there is here as relates to Europe. I 
think it's really an important point. I really do. I really do.
    But let me posit what I would suggest as a possible 
solution or approach and then ask you guys to comment on it, if 
you would.
    First of all, I am positive that NATO's ready to come in 
and ready to come in now. There are plans already drafted as to 
exactly what functions NATO could take over now and what 
sectors they could take over now. General Jones is already 
ahead of the curve in case he's asked that. There has already 
been a request for NATO to participate in Iraq.
    In my almost 2-hour conversation with Chirac, he said he 
would immediately support NATO playing a role, No. 1, and No. 
2, if there was a United Nations, a real U.N. resolution 
dealing with political authority in transition, that he would 
be prepared to send French troops into Iraq, and I remember 
when I wrote an article 5 months ago saying that we should get 
NATO in and have a high commissioner, everyone said, well, my 
God, Joe, that's not a bad idea, but God Almighty, the 
Europeans will never do it.
    The Europeans have more at stake in the failure of NATO 
than we do. More short-term. Fourteen percent of France's 
population is Arab. Germans are schizophrenic about population 
flows. What will happen if there's a civil war in Iraq with the 
Turks and the Kurds and what that means for them in Germany.
    We have to get straight. We have to get straight, that 
there's this overwhelming tug of war in Europe between wanting 
us to fail because they told us what was going to happen and we 
didn't listen and realizing--you know what it reminds me of? It 
reminds me of Chris Dodd and I voting to bail out Chase 
Manhattan Bank which we did in Latin America. They're greedy 
SOBs. They took these high-risk efforts to make a lot of money. 
If it had been a mom and pop store that invested down there, 
we'd let them go under. We couldn't let Chase Manhattan go 
under. We had to save them. They were too big to fail, too big 
to fail.
    The Europeans understand that. They understand that 
clearly. Now, I know you guys are experts, but I've spent as 
much time in Europe talking to these guys as you have combined. 
I'm telling you, they're ready. They're absolutely positively 
ready, but they will not go, as Mr. Kagan says, before there's 
an antecedent resolution and that's the real kicker here.
    What everybody knows, in my opinion, and this is to get you 
to come and take me on on this if you disagree, what everybody 
knows is that we don't have a handle on this. When I speak to 
European leaders, everyone from Javier Solana to the new 
President of the EU to the heads of state in all the major 
countries, they all say basically the same thing.
    There used to be an old bad joke. I played baseball in high 
school and was a haphazard guy in college. I had a coach who 
used to say remember that joke about George who played center 
field, first three innings, six errors. Coach calls him out, 
goes nuts, says, you're out of here, and he turns around and 
says Phil, you're in the center field, and Phil runs out to 
center field, first pitch, routine fly ball to Phil, hits his 
glove, he drops it, error. Coach goes nuts, calls Phil in, Phil 
comes running across the third base line to the coach. He says, 
what the devil is the matter with you, Phil? And Phil looks at 
the coach and says, coach, George screwed up center field so 
badly, no one can play it.
    It's a joke, but they think we have screwed up Iraq so 
badly, beyond their populations being opposed, they think we've 
screwed it up so badly that they don't want to play it, and 
they realize they have to play, they have to play, and so it 
seems to me the key here is getting what some in this 
administration are pushing hard for, a serious resolution to 
the United Nations, having someone of the caliber of Brahimi 
coming in like Kouchner did in Bosnia early on, because who's 
going to be the referee from July 1 to January 1 when an 
election is held?
    But mark my words. When Chalabi cuts a deal, cuts a deal 
with Mr. al-Sistani about a change in the constitution that 
limits the participation of women, for example, or the role of 
the Sharia, who's the one that's going to demarche that 
organization like we did the loya jirga in Afghanistan as they 
trampled through their constitution? Is it going to be, as Tony 
Blinken on my staff says, we're going to go from Clark Kent to 
Superman? With Clark Kent, at least there's some help we get in 
the CPA now because we have guys like Jeremy Greenstock and 
others who you know and is an incredibly well-respected 
diplomat.
    Now we're going to go to a super Ambassador of the United 
States. Is he going to want to go and say, by the way, guys, go 
back in a tent and work this one out? Everybody knows this is 
going to happen. There's going to be an implosion, an absolute 
implosion when we pull out politically, and so what I don't get 
is why we don't get.
    When I spoke to Chirac, I said--he said, ``You need not go 
to the whole Security Council. The PERM-5 is sufficient.'' 
These guys are ready. They know they have to be ready. What is 
it? What is the impediment we have to turning this over? We 
don't lose face. We're leaving anyway. How do we lose face if 
we negotiate it right now as we speak what the follow-on entity 
will be to the CPA, other than a 3,000-person embassy, which, 
as you know, Jim, we're talking about, 1,000 Americans, 2,000 
nationals, largest embassy in the world going to take over in 
Baghdad?
    So, my point is three things. One, it seems to me President 
Bush should engage right now, engage in Europe now. No. 2, 
engage in public diplomacy. By the way, as Democrats, some of 
our liberal Democratic friends voted against my effort to 
increase--I wanted to keep Radio Free Europe. They wanted to 
get rid of it. They wanted to get rid of the European radios, 
for example. It's not just Republicans.
    A U.N. high commissioner or some version of it. They don't 
like the high commissioner, come up with some entity where 
there's real political muscle; that is, a U.N. answerable to 
the Security Council. NATO will come in then. You'll not get 
more, Jim, than 20,000 NATO forces. You don't have enough to 
put in now, but I tell you the functions, border security, 
Northern Iraq, free up the Marines that we have, move in to 
take over the logistics and all the efforts of the polls in the 
southern flat. Spain will stay. Spain will stay under that 
circumstance. I'd bet my career on it. Spain will stay in that 
circumstance.
    Joint task forces with our European friends know how to 
work out what we should be doing we're trying to do here with 
the bureaucratic entities all getting in a plane, deadhead to 
Europe, sitting down, FBI, DEA, CIA, Justice, working out the 
international terrorist piece, and last, a larger attitude 
about large agreements on proliferation, on proliferation, 
literal treaties which this administration excuses the notion 
of treaties, other than a bilateral agreement.
    What is wrong with--and there may be a long wrong with it. 
Just because I feel strongly about it doesn't make it right. 
Tell me what is wrong with that prescription, other than the 
politics of it, because I think each of you are right, and by 
the way, Phil, I should hold up your book. I've sold more of 
Kagan's books for him than you can imagine. I bought over 60 of 
them to give away.
    Mr. Kagan. Thank you.
    Senator Biden. I want you to know, Bob, this is even good. 
I've endorsed this one. You know what I mean?
    Dr. Gordon. Senator, could you read the title?
    Senator Biden. Which probably means you will sell fewer 
books. Really, it's first rate. It's first rate. But for Dr. 
Niblett on, why is it--what is the core problem? Is not the 
core problem this notion that is emerging even in the United 
States and some of us believed before we went, how can we say 
the Europeans aren't prepared to help and fight terror when 
there was not a peep about sending forces now and before to 
Afghanistan, Afghanistan, and we wanted to expand international 
security force and Secretary Powell tried and the Europeans 
were prepared to contribute and Secretary Rumsfeld said no, no.
    How can we say these guys aren't willing to fight terror 
when in fact the only guys getting shot at and going after 
people in Tora Bora are Frenchmen? There's a French flag and an 
American flag. They fly in the far most outpost in Afghanistan. 
These are bad guys, the French. They're tough. They're the ones 
going into the hills with our Marines and Special Forces 
shooting people. No one else is going out looking for people.
    So, how can we say these guys aren't ready to fight, aren't 
ready to be there if they're still there in Afghanistan, 
willing to put more troops in Afghanistan? We're now expanding 
the international security force and not understand what a lot 
of us understand, this notion we should stop talking about. If 
we don't fight them in Baghdad, we're going to fight them in 
Boston. Malarkey.
    If the Lord Almighty came down and stood right there in 
that middle section between us and said, I guarantee you 
there'll not be one single additional terrorist attack against 
the United States of America for the next decade, does anybody 
think we've solved anything in Iraq?
    Senator Allen. You all are experts, but I think that's 
outside of your expertise.
    Senator Biden. It's above my pay grade. Excuse my 
frustration.
    Mr. Kagan. I'll just stipulate on some of them.
    As far as the Europeans are concerned, look, I think that 
there will ultimately be a willingness to go. I don't disagree 
with you. I didn't spend 2 hours talking to Jacques Chirac, so 
you'd know better than I do.
    My sense, though, is that, as you said, they don't have a 
lot to contribute, and I think honestly 20,000 is optimistic 
because they really are stretched. They're doing a lot, as you 
say. They're doing a lot. I also noticed recently, very 
recently in fact, that the Germany Foreign Minister has been 
saying he doesn't think it's a good idea for NATO to go into 
Iraq, and I think that the people who would have to count votes 
today count votes in the NATO councils without a U.N. mandate, 
they're not going to get NATO.
    Senator Biden. Absolutely. I agree with you fully. We need 
a U.N. mandate first.
    Mr. Kagan. Right. Now, as to the terms of the U.N. mandate, 
I don't honestly see why we can't come to an agreement with 
France on what the next U.N. mandate should look like. I don't 
want you to bet your--I think it's very important that you stay 
in the Senate. So, I don't want you to bet your whole career on 
whether the Spaniards come in after that, because I think that 
this guy has made a promise to voters who elected him on the 
basis of that promise, and I'm not as optimistic as my 
colleagues seem to be that he's going to be able to turn around 
in a couple of months and decide to reverse himself.
    Senator Biden. Bob, didn't he say that he was out, unless, 
unless the U.N. was in?
    Mr. Kagan. That's right. But the question is, when he 
talks--I mean, I was talking to a French colleague of ours, a 
friend of ours, and I was saying, so, what is it exactly that 
the Spaniards need in a U.N. mandate, and no one knows what the 
answer to that question is, and the best--by the way, the 
Spaniards themselves probably don't know what the answer to 
that question is right now because they just got here. They've 
been running a campaign for a long time.
    Senator Allen. Anybody else?
    Dr. Niblett. Let me just quickly on the Spanish thing. It's 
worth noting, I think, the new Spanish rotation came about, I 
think it was last week. It was a very tense handover because 
they had to go out in essence through a transition period.
    It's interesting that the new rotation has headed out and 
that at least that's taken place, and I think it's worth 
noting, obviously the Socialists who campaigned against NATO 
back in 1982 were then the government that turned out to be 
good allies.
    However, the timeline is very, very tight and that 
obviously is what's working against it. I think the intent is 
possible. The timeline is what's going to make it difficult.
    Senator Biden, I agree, the role for NATO in Iraq should be 
sought. It may even be inevitable. I think there's probably 
majority support for it. The thing about NATO is not everyone 
has to go, just everyone has to sign up. I think there are two 
concerns. One on the U.S. side is, is the security situation 
ready? Now, if it's a small force that's doing targeted issues, 
then maybe that's OK.
    Then you get to the Joschka Fischer concern. The Joschka 
Fischer concern, I think, is your point. They cannot afford to 
have NATO fail in Iraq and they cannot afford to have NATO be 
seen to be involved in an action that's going to hell and that 
is----
    Senator Biden. He's worried it's going to fail in 
Afghanistan. That's his stated worry.
    Dr. Niblett. So, on both those areas, they want to see a 
NATO operation that is successful and it's taken a lot to get 
NATO out of area politically in many of these countries. It's 
doing, at least from the political and a public opinion 
standpoint, a great job, but that could turn very quickly. No 
one in Europe wants to see NATO fail.
    Dr. Gordon. Just one word on Spain and then a word on 
Senator Biden's big point.
    Bob, just to clarify. I just want to be clear. I didn't 
necessarily express optimism that the Spanish would stay. I 
think you're right. If you think about it, the political 
incentive for this leader is to do what he said he was going to 
do, and it's going to be hard to get him to stay. What I said 
and believe is that we have an incentive in trying to get him 
to do that and there's a bit of wiggle room that we might as 
well explore, but no one can deny that it's just easier for him 
to do what made him popular in the first place.
    On the broader point, I find myself in a funny position. 
Usually Bob is the one who's pessimistic about getting 
Europeans involved and I try to make a case like Senator Biden 
does that we can, but since, Senator, you invited more 
disagreement, let me just try to say what I think the obstacles 
are, even though I completely agree with the overall thrust of 
what you said. I'll be very brief.
    It's too big to fail, but the problem is they know that we 
know that and the President has already made clear when we 
needed $87 billion more, he asked for $87 billion and he got 
it. So, even though they know that this can't fail, there will 
be a political temptation for them to take advantage of the 
fact that we're going to be there. If we need more troops, 
we'll have to come up with the troops because, as important as 
it is for them, it's even more important for us and the 
administration.
    Second, the political obstacles that we've already talked 
about. For those leaders to look like they're caving and doing 
what we want them to do is just hard and they like to get 
elected and it's very popular to stand up to us on what at 
least the Spanish leader characterized as a disaster.
    Third are the military constraints that Bob and you talked 
about. The Germans are, even if they wanted, everyone's 
overextended, but they are particularly--they have more than 
10,000 troops abroad. The Brits are overextended. Ironically, 
as I think we all agree, it's the French. If someone can come 
up with the division or 15,000 troops, it's probably the 
French, and I think it's worth exploring, but there's not a lot 
of wiggle room there.
    Fourth is the questions of rules of engagement and command 
structure. I mean, the NATO role, one of the biggest obstacles 
to that and one of our reluctance is that do you put the North 
Atlantic Council in charge, and if so, in charge of what?
    I think this is a solvable problem if, in advance, you very 
explicitly say what the rules of engagement are, so that they 
know, but you can understand a bit of reluctance here about 
saying that all of the now-expanding members of the North 
Atlantic Council could intervene and direct people to do 
something, and, of course, on command structure, NATO and 
General Jones is one structure, but that's not the structure 
that happens to be in charge of security in Iraq. So, that's 
yet another obstacle to the NATO thing.
    All of that, because you invited the reasons that this is 
hard, but overall, what it leads to, I think, is still the 
conclusion that you reached. It is possible to get more allied 
support and NATO role, but we have to pay a price for it, and I 
don't even think the price is that big. A slight political 
price in terms of control, political control of what's going on 
in Iraq, in order for allied support is clearly worth paying, 
we haven't exactly shown that will----
    Senator Biden. That will throw us in the briar patch. You 
know what I mean? Iraq ain't no prize and we keep acting like 
it's a prize.
    Dr. Gordon. Keep acting like it's a prize and acting like 
if only you just leave it to us, we'll be able to set it up 
politically and everything will work just fine. I don't think 
we've demonstrated that, and I think the risk of allowing a few 
other voices in that debate is frankly small compared to the 
payoff that you outlined.
    Mr. Dobbins. Senator, I want to start by making an appeal 
for equal time on both endorsements, and I'll bring one of mine 
along next time.
    Senator Biden. I've said so many nice things about you over 
the years, you've been badly damaged.
    Mr. Dobbins. I'm more optimistic than Bob is about the 
prospects of getting NATO involved and Europe more involved, 
although perhaps not to the point that you've reached, and I'm 
not sure that the reason we haven't tabled the new Security 
Council resolution is a debate in the administration. It's 
possible there is one, but I think there is an issue of 
sequencing here.
    We can't table the resolution until we've got an Iraqi 
government. It doesn't have to be in office. It has to be in 
offing. In other words, the whole point of the resolution will 
be to welcome and authorize the transfer of power to an Iraqi 
government. You can't do that until there's something there or 
people of the Security Council are going to say, well, this is 
fine, but let's wait a couple of weeks, let's see if Brahimi 
succeeds. You may not have a June 30 transfer, in which case 
this resolution is premature.
    So, my guess is, while there may be some debate over the 
nature of the resolution, the administration at the moment just 
doesn't want to put itself in a demander position by admitting 
it needs a resolution but it knows it needs a resolution and it 
will table the resolution. It recognizes it's then going to 
have to negotiate the terms with France and other countries.
    But it needs to have gotten over this next hurdle which is 
getting al-Sistani and Chalabi and others to agree on how this 
government is to be formed. That's my guess.
    Senator Biden. Thank you all.
    Senator Allen. Thank you all so much. Now, I'd like to 
recognize the Senator from Connecticut, Senator Dodd.
    The morning of that terrible tragedy on March 11, Senator 
Dodd and I worked together on a resolution expressing the 
condolences, the concerns of Americans for the people of Spain, 
and I remember as we were trying to get all the evidence, and I 
was saying, well, let's not put some of these things in here.
    Let's not blame anyone until they actually figure out who 
is at fault. Senator Dodd is a strong colleague and ally in 
expressing the sentiments of the U.S. Senate and therefore the 
American people, and he's an esteemed member of this committee 
with a great deal of experience. Welcome.
    Senator Dodd. Well, thanks very much, Mr. Chairman. It's 
been interesting to hear the conversation of the last hour or 
so, and I obviously know these people and am very impressed 
with their observations, and I have an opening statement, Mr. 
Chairman, that I'd asked be included in the record at the 
appropriate place.
    Senator Allen. So ordered.
    Senator Dodd. And in addition to serving on this committee, 
the full committee, I'm not a member of this subcommittee but 
the full committee, I chair something called U.S.-Spain 
Council, along with my colleague from Madrid, Antonio 
Rodriguez, and in fact every meeting we've had, including the 
most recent one just a few weeks ago in Miami, the annual 
meeting in this country, we spent a good deal of time during 
that discussion on the subject of terrorism.
    The Spanish have more than just a passing appreciation of 
this issue having lived over the past three or four decades 
with ETA and the terrible hardships that have been visited on 
Spain as a result of the activities of that Basque separatist 
organization. So, they bring a very compelling set of 
understandings about the issue. Very different form of how 
terrorism is engaged in a sense, not that it makes much 
difference to people.
    Just a couple of things I wanted to share. I think it's 
important, and I really appreciate the comments that were made 
by all of you. Too often, I think we have a tendency just to 
see the dark side of all of these things, and there have been 
some very compelling moments.
    I recall right after 9/11, when we became painfully aware 
of the hardships of terrorism, there was not an uncommon 
headline in many European newspapers that identified very 
directly with who we were. French newspapers, News Americanes, 
we're all Americans. Spanish papers, the same line being used. 
Something we hadn't seen out of the European community in 
years.
    I think bringing forth some deeply felt emotions about the 
relationship between the United States and Europe. Despite 
these annoyances and differences which dominate the headlines 
of the news from day to day, there is a deep and fundamental 
relationship that exists, and we should never lose sight of 
that.
    I think the fact that the international community with 
Resolution 1373 right away after 9/11, setting up the committee 
to really go after and look at the issue of terrorism. Just 5 
days ago, the U.N. adopted Resolution 1535 which is a very 
important document. The fact that the European Community has 
begun to move very aggressively in a number of areas that have 
been identified.
    The two documents, I think particularly those referenced 
and adopted over the last few months, the European Security 
Strategy from December of 2003, which lists terrorists among 
the most serious threats facing the European Union. I'm not 
sure that was widely reported here in the United States.
    The second is the European Council's March 25 Declaration 
on Combating Terrorism which lays out a specific set of 
objectives to better equip Europe in the fight against global 
terror. That was, of course, 2 days after the attack in Madrid. 
They're very important.
    The Declaration also expresses support for the creation of 
the post Counterterrorism Coordinator of the European Union and 
already High Representative Solana has named a former Dutch 
Deputy Interior Minister to fill that role.
    So, there have been some major steps, and of course, there 
are other documents, the treaties, the mutual legal assistance, 
extradition treaties, and other things that really do evidence 
the kind of cooperation that exists. Now, there clearly are 
differences.
    What I'd like to raise with you is what I think is needed 
here. As I look at this, and you and certainly Senator Biden, 
Senator Allen, spend a lot more time thinking about these 
things, but what it seems to me--and I'm not suggesting there's 
necessarily merit to what I'm about to say, but I'm curious as 
to whether or not you agree that this is one of the problems, 
the obstacles.
    I don't disagree at all with the notion of sequencing. I 
think there clearly has to be a U.N. resolution before any 
discussion of NATO commitment. I don't think there necessarily 
has to be great sequencing, though, over the issue of 
sovereignty and the issue of U.N. resolution. I think there can 
be some simultaneity that occurs here. In fact, I think one may 
reinforce the other. So, rather waiting for other before doing 
the other, I think, may be unnecessary.
    What I think is needed here, in my view, is the issue of 
the United States and the Bush administration being very bold 
and doing something, which what I'm inclined to do because I 
think the impression is within the European Community, not that 
they don't have to be involved and want to be involved, but 
there is a suspicion that unilateralism is still very much a 
part of this game and that we may not be as serious about 
developing the kind of international cooperation as we're 
saying.
    What I'm suggesting is why wouldn't the administration ask 
the French and the Spanish, write the resolution yourself? 
Gotta ask them to do it. What better way to get the Spanish at 
this juncture, given the timeframes we're dealing with, to 
begin to move off their point of making contingent their 
continued involvement in Iraq based on a U.N. involvement. I 
can't think of any quicker way to take this new Prime Minister 
and to move him into a position of leadership and 
responsibility on this issue than asking them to draft the 
resolution. We certainly want to work with them but let them 
take the lead on it.
    I realize there will be some hesitancy, and I'm not 
suggesting here that the administration is disingenuous, but I 
think the impression, my impression is that within Europe, the 
impression is that we're really trying to get over the next 6 
or 8 months past our elections. That's the impression I think 
exists there, and I think to disabuse the Europeans of that 
impression, to be bold and say you do it, you're claiming you 
want to be involved, you think you have to be involved, you 
write the resolution, and then we'll work with you, but you 
take the lead on it, you draft it, and let's see if we can't 
move on that basis.
    I'd be curious as to how you might respond to that kind of 
suggestion as a way of breaking through this. Whether or not 
you agree that the problem is the impression that we're not 
really serious about multilateralizing this effort but more as 
a ruse. Anyone want to comment on that?
    Dr. Niblett. Senator, if I could just jump in, because I 
think your point gets to one of the points that Phil Gordon 
mentioned as well in his comments just now, which is what sort 
of political cost might European governments face by accepting 
a change of policy.
    European governments will have political cover if it's 
visible that the United States followed their advice, that it 
was not the U.S. taking the lead. That's the cover in essence 
they need. They could turn around to their electorates and say 
look, the United States wouldn't have done this if we hadn't 
put our foot down. That is a tough thing to do potentially, 
first, in an election year, and second, it may be tough also 
procedurally, and since the United States does have a very 
important interest in the rights of the resolution being 
drafted and one that meets their needs.
    But I think from the point of view of the ultimate U.S. 
objective in Iraq, which is to get as much international 
support as possible for the long term, for the long term as 
much as for the near term, that it needs to find a way to let 
the European governments see that their advice is being 
followed. That cover is what's needed, then the kind of 
scenario that Senator Biden painted out could be possible. 
Thank you.
    Senator Dodd. Anyone else want to comment on this? First of 
all, I think the impression is wrong. I just think you're going 
to have an awful time getting the second and third sequencing 
events, given the politics of these places and so forth. It's 
going to be hard for the leadership, no matter what they tell 
Members of Congress or visiting officials from the Bush 
administration.
    The fact of the matter is they've got to deal with their 
electorates, and in the absence of their electorates getting a 
feeling that they're not just following along but they are 
actually leading on this issue, I think it's going to be damn 
near impossible for the politics locally in the separate 
European nations to be able to do much else, and so do you 
think my impression of how Europe sees this is wrong, tell me 
that, because obviously if you disagree with that, then the 
suggestion that we ought to ask them to take the lead on it 
doesn't have any value.
    Mr. Kagan.
    Mr. Kagan. Well, I think, you know, if Chirac and the 
United States work out a deal on a resolution, the French 
public will go along. They're not going to feel like Chirac got 
taken. I don't think Chirac has to worry about----
    Senator Dodd. What's the problem with asking Chirac to 
write it?
    Mr. Kagan. Well, I would say, I think we should--it's a bad 
negotiating strategy. I mean, we do have serious equities 
involved. It is our force, for one thing, that's going to be 
involved, and I think that we do have an obligation to the 
Iraqi people to make sure that whatever the resolution is--now, 
I'm not saying that we have the totality of wisdom on what's 
best for the Iraqi people, but I think it--I'm not sure it 
would be entirely responsible or the right negotiating tactic 
to say to the French you write the resolution.
    Senator Dodd. Well, I've said to you that obviously we're 
going to be able to work with it, but the lead--imagine what 
that headline would be in Paris tomorrow. Obviously, we're not 
going to sit there and just say write it, we'll take whatever 
you say.
    Mr. Kagan. You know, Senator, at this point, I think some 
good old-fashioned diplomacy would be a step forward from where 
we are right now. You know, I'd be happy just to see the 
negotiation. I'd be happy to see a stream of American officials 
going over to Paris and to other European capitals and begin 
this.
    Frankly, I think that itself would send the signal that 
you're trying to send. I mean, where we are right now is we've 
got Americans who are hanging out in Washington. You have 
Europeans hanging out in Europe and Brussels, and there's just 
not this kind of thing.
    Senator Dodd. I don't disagree with that either, that 
suggestion. By the way, I'm told Secretary Powell actually had 
a very good meeting----
    Mr. Kagan. Right.
    Senator Dodd [continuing]. With the incoming Prime Minister 
and the Foreign Minister I've known for some time and actually 
attended the U.S.-Spain Council meetings in Florida with us a 
few weeks ago, and there's been a good relationship there.
    The relationship between Spain and the United States is a 
very deep and profound one. We shouldn't overread the situation 
in Iraq. Obviously, there's differences.
    I happened to be in Madrid during U.S. Council meetings 
when the decisions were made about going into Iraq and the 
demonstrations were huge in Madrid, but it was really a policy 
debate and division. It would be overreading it to suggest 
somehow this was anti-American feeling, in my view. Anyway, 
just as an aside.
    Any comment on this?
    Dr. Gordon. Just a word. I think your description of the 
European perception is accurate, but it's also starting to 
change. I think to be fair, the administration has already come 
a long way, I think belatedly, but in the direction of giving 
the impression that it doesn't want total control over this 
whole political structure to be in the hands of the Pentagon 
alone and no one can influence it.
    The preparation of the transfer of sovereignty, the 
appointment of Brahimi and the role for the U.N. in organizing 
elections and exploring with the communities, I think the 
discussion of and preparation of a possible NATO role and a new 
U.N. mandate is already movement in the direction that lessens 
the European perception that we just want to hold on to this 
for ourselves. So, the perception is there, but the 
administration, to be fair, I think is starting to deal with 
it.
    In terms of asking them to write the resolution, I said in 
my opening testimony what we need to do at a minimum is hear 
what they need. That may be another way of putting it. I'm not 
sure I would also go as far as to say OK, you write the draft, 
but immediately go over and say OK, what do you need? You've 
said or implied that there might be conditions under which you 
would stay and the French and others have said that there might 
be conditions under which they would do things, like train 
forces and support NATO and all that. Well, what are those 
conditions? If the answer is in the ballpark, if the answer is 
not something just unacceptable in terms of rules of engagement 
and chain of command and political authority, then I think 
we're in business.
    But the point is I think we are in business. I think this 
is what we're doing, and I think there's a good chance it'll 
work.
    Senator Dodd. Yes.
    Mr. Dobbins. I think President Bush will have at least 
three occasions over the next few months to persuade the 
Europeans that he's a born-again multilateralist. It's going to 
be difficult to do so for the reasons you said and for the 
reasons you also suggested which is in a Presidential year, 
it's hard to admit you were wrong and that you're prepared to 
start over.
    So, I think that it may take longer than between now and 
June to make that a convincing case.
    And indeed, a real reconciliation may have to wait till 
after the elections, and then one will see whether this was a 
tactical change or a fundamental one, assuming administration 
victory, but I think a start is being made, and I think the 
administration is sincere in its desires to expand the 
multilateral role in this regard.
    What's missing, and here I agree with Bob, is the 
diplomatic campaign to bring that about. Summit meetings aren't 
enough. Occasional visits by Secretary Powell aren't enough. 
You need backroom conversations among principal allies, 
Germany, France, Spain, Poland, the ones who have troops on the 
ground or whom we would like to have troops on the ground, 
where we talk privately in some depth at some length about what 
our true objectives are, what our strategy is, where we're 
going, how we want to use various international 
instrumentalities, and once we've got an agreed strategic 
framework that is the product of intimate, extensive and 
confidential discussions, then working out one of these 
resolutions is not a big problem.
    But you cannot achieve that through instructed negotiations 
on the behalf of Ambassadors in New York. All you get then is 
you get words, but you don't get a strategic consensus.
    Senator Dodd. I totally agree with that. I think you all at 
least share that view and I certainly think that's absolutely 
essential, and there is a sense of estrangement here and we've 
got to work much, much harder at that if these efforts are 
going to work.
    Well, again, I thank you. Thank you, Mr. Chairman. It's 
very helpful. I appreciate you allowing me to come and 
participate in this. It's been very instructive, and again I 
think I say at the outset here, expressing our collective 
sympathies and the chairman was very helpful in working on that 
resolution that the Senate adopted hours after the events in 
Madrid, and whatever other differences we may have over policy 
issues and the like, there is a tremendous amount of respect.
    Spain has been a great story in the last few years. What 
has happened in 25 years under the leadership of King Juan 
Carlos and then the government of Felipe Gonzalez, the 
government of Aznar and this government may emerge has really 
been one of the not as well told a story in the European 
Community.
    One of the great, great success stories of the last quarter 
of a century, and this is a great relationship between our two 
countries, and it's because we don't talk about it, we always 
talk about the relationship with Great Britain obviously, with 
France, with Germany, even Italy to a larger extent, but this 
U.S.-Spain relationship is a significant one and it requires 
some work here, but I have no doubt in my mind that it will 
remain solid and reaching out, and I think you may have made 
this suggestion, maybe it was Phil, but made the suggestion of 
the President going, offering to go to meet, inviting the new 
Prime Minister to come here, whatever may work. Those kinds of 
gestures are very significant.
    I know when President Bush did that with the President-
elect of Brazil, President Lula, it was a stunning piece of 
news that this President would invite a left of center 
President in Brazil to come to the United States and invite him 
to have joint cabinet meetings with Brazil was unheard of.
    In moments like this, those kinds of objectives are worth a 
tremendous amount, really following up with the kinds of things 
Bob talked about, can really be of help.
    So, I thank all of you for your testimony. Thank you, Mr. 
Chairman.
    [The prepared statement of Senator Dodd follows:]

           Prepared Statement of Senator Christopher J. Dodd

    Mr. Chairman, I know that along with many here in the U.S. and 
around the world, a sense of shock still lingers from the tragedy which 
struck our friends in Spain only 20 days ago. The images of the 
bloodshed and immense suffering are still vivid in our memories and 
will never be forgotten. But at the same time, I believe it is 
imperative that we look ahead so that we can work together to prevent 
the loss of more innocent life. This hearing is an opportunity to do 
just that, and I commend the chairman for holding it today.
    The threat of terrorism is not new to the United States. Only three 
short years ago, on September 11, 2001, we were the victims of another 
terrorist attack--the deadliest ever to occur on U.S. soil. In response 
to that horrific crime, we as Americans came together in an 
unprecedented show of solidarity to fight the threat posed by 
international terrorist organizations.
    This solidarity was echoed by the international community. On 
September 28, 2001, the U.N. Security Council passed Resolution 1373, 
which called upon member nations to take certain concrete actions to 
fight back against the global terrorist threat. It also provided for 
the creation of a Counter Terrorism Committee as a subcommittee of the 
Security Council. And while this body has not been as effective as had 
been hoped, U.N. Security Council Resolution 1535--which was passed 5 
days ago--contains important provisions aimed at increasing the 
effectiveness of this committee. These provisions include the creation 
of a Counter Terrorism Executive Directorate and the appointment of an 
Executive Director--who is to be named in the coming weeks by Secretary 
General Annan.
    The European Union has also taken several steps of its own. During 
the past 3 years, European laws aimed at fighting terrorism and 
terrorist organizations have been strengthened. Border control 
mechanisms have improved, and intra-European police and judicial 
cooperation have increased. Agreements such as the European Arrest 
Warrant serve as indicators of this progress.
    Progress can also be seen in other areas. I would call to the 
attention of my colleagues two important documents that were drafted by 
our European allies over the last few months. The first is the European 
Security Strategy from December 2003, which lists terrorism first among 
the most serious threats facing the European Union. And the second is 
the European Council's March 25 Declaration on Combating Terrorism, 
which lays out a specific set of objectives to better equip Europe in 
the fight against global terror, as well as time-lines for completion 
of these objectives. The Declaration also expresses support for the 
creation of the post of Counter Terrorism Coordinator for the EU. I am 
pleased that High Representative Solana has already appointed former 
Dutch Deputy Interior Minister Gijs de Vries to serve in that role.
    Certainly, there have been some differences across the 
transatlantic divide with respect to appropriate methods for battling 
the terrorist threat. There have also been disagreements as to where 
anti-terrorism efforts should be focused. But these differences 
shouldn't be allowed to compromise our unity against global terrorism. 
Over the past few years, the U.S. and Europe have made some important 
strides in increasing cooperation on the war on terror. This 
cooperation must be expanded and strengthened. The treaties on Mutual 
Legal Assistance (MLA) and extradition, which were signed in June 2003 
by the U.S. and E.U., have helped to further this goal.
    Having said that, much work remains to be done. The heinous attacks 
in Madrid are a reminder of this fact. Domestically and globally, the 
U.S., European Union, and peace-loving nations throughout the world 
must continue to strengthen their defenses against terrorism. That 
requires more resources, better organization, closer cooperation, and 
flexible institutions capable of quickly adapting to emerging threats. 
It means that we must ensure individual liberties are not jeopardized 
under the rubric of increased security--that the foundations of 
democracy are protected. And it requires that we not only fight 
terrorist organizations but battle poverty and repression, which remain 
some of terrorism's root causes.
    It also requires that when terrorist attacks do occur that we be as 
honest and candid about what transpired in the context of such 
attacks--that we look carefully at what efforts were made to detect and 
deter those attacks, what additional steps could have been taken, and 
what steps we intend to take in the future to make it less likely that 
similar attacks will occur in the future. While this might seem obvious 
on its face that these measures should be undertaken, the really is 
that these things are harder to do that one might think. But it is 
critical to our shared national security that we find constructive ways 
to do this without getting into the blame game.
    The extent of effective international cooperation--especially the 
transatlantic relationship between the U.S. and Europe--will be a 
barometer of our success in the war on terror. We must unite around our 
fundamental values of freedom and democracy so that together, we can 
ensure that this world is safe for freedom-loving people everywhere.
    I look forward to asking some questions of our expert witnesses.

    Senator Allen. Thank you, Senator Dodd. I want to conclude 
by thanking you all. I think that there is some commonality of 
views here on what needs to be done.
    There's been assertions made that Iraq is a prize. I don't 
think that anyone really believes in this country that Iraq is 
a prize. The President's motivation in Iraq is a vision of 
bringing freedom to the Middle East. It won't be easy. There 
aren't George Masons and Thomas Jeffersons and Benjamin 
Franklins there, but if we can succeed, as tough as it looks 
right now, what a model that would be for other countries and 
people in the Middle East.
    Spain is important. They're an ally. They made their 
decisions. I understand why we want to work with Spain. Each 
country, though, has their own prerogatives. We can't have our 
country's freedom or the investments we've made in this war on 
terrorism determined by one country.
    The effects of Madrid are more than just Spain. The 
question that we're trying to address here in this hearing 
today is what does that do and what's the psychological impact, 
what is the reaction, what actions, constructive actions can be 
taken in Europe?
    The one good thing from this that has been unanimously 
stated, and whether it's from this panel or from Ambassador 
Black, is the determination of our friends in Europe to fight 
terrorism. They're not going to back off. They're going to have 
to work smarter, with greater intelligence, I'm talking about 
counterintelligence, with us, with each other, within their 
countries and that's positive.
    How we move from here and what happens with our 
relationship with Spain, the implications therefrom have big 
impacts on Europe. What the U.S. and Europe's transatlantic 
relationships are on whether it's the war on terrorism or if 
it's on an issue, such as Iraq, sends messages to the rest of 
the world because it's not just the United States and the 
Europeans together on this, but if the United States and the 
Europeans who have so many good ties, so many shared 
principles, philosophies, freedoms, trade, commerce, all of 
that, if we can't agree, it makes it very hard to get other 
countries in the rest of the world to agree.
    So, what happens there on the Iberian Peninsula really does 
have a lot of far-reaching impacts, and we're going to work 
through it, but I think there's that willingness to do so.
    Listening to Ambassador Black, I have no doubt that some of 
the prescriptions or insights that you gentlemen have put 
forward are actually going on through back channels. That's 
where it works up before it gets to the chief principals, and I 
think that your counsel here today is good for the American 
people who are listening, who will read about your testimony 
from this hearing, to recognize the United States respects our 
allies. We're willing to work with them and our allies are also 
going to be with us persevering in this war on terrorism.
    While we may disagree on some of the tactics, the overall 
goal is the same, and so I thank each of you. Robert Kagan, Dr. 
Robin Niblett, Dr. Philip Gordon, and Ambassador James Dobbins. 
Thank you all so much for your insight, for your commentary, 
and your good direction for this committee and America.
    The hearing is adjourned.
    [Whereupon, at 5:13 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]

                                 <all>

</pre></body></html>
